January 2006
Report No. 06-005


FDIC Safeguards Over Personal
Employee Information




        EVALUATION REPORT

             eral
                                                                                                       Report No. 06-005
                                                                                                          January 2006

                                   FDIC Safeguards Over Personal Employee Information

                                   Results of Evaluation

                                   The FDIC has a corporate-wide program for protecting personal employee information,
                                   has appointed a Chief Privacy Officer (CPO) with responsibility for privacy and data
                                   protection policy, and is making efforts to enhance its privacy program in response to
                                   legislative requirements and breaches of FDIC employee information. The following table
Background and                     presents programmatic initiatives and notable physical and electronic safeguards over
Purpose of Evaluation              personal employee information that the FDIC has in place or underway.

The Federal Trade                                      Initiatives In Place or Underway
Commission defines identity
                                   Privacy       •   The Legal Division is updating required system of records notices (SORN).
theft as “a fraud that is          Program       •   The Legal Division documented required privacy reviews.
committed or attempted, using                    •   The CPO developed a Privacy Web site.
a person’s identifying                           •   The CPO has developed and implemented privacy awareness training courses.
information without
permission.” Identity theft is     Physical      • Human Resources Branch (HRB) operations and files containing Social Security
                                   Safeguards      Numbers (SSNs) are housed in limited-access, secured office space.
one of the fastest growing
                                                 • HRB employees are required to encrypt all internal and external transmissions
crimes in the country and has
                                                   containing sensitive information.
involved private sector and                      • HRB has eliminated SSNs from most standard reports, including staffing tables.
federal agency information.                      • Records Management has eliminated SSNs from most FDIC forms.
                                                 • HRB has installed personal shredders for all HRB staff, and the Corporation has
The FDIC is no exception and                       installed secured shredding bins in all FDIC Headquarters offices.
has experienced several
breaches involving personal
                                   Electronic   • The Division of Information Technology (DIT) completed required information
                                   Safeguards     security procedures for the FDIC’s human resources and accounting systems.
employee information. For
                                                • DIT conducted a review of FDIC applications to identify those containing SSNs.
example, a security breach                      • DIT conducted a corporate-wide survey to collect information about electronic
identified in 2005 involved                       and hardcopy sources of data containing SSNs.
unauthorized access to                          • DIT completed Privacy Impact Assessments for 27 systems containing SSNs.
personal information for a large                • DOA and the Division of Finance (DOF) have reviewed user access levels for
number of current and former                      the FDIC’s human resources and accounting systems.
FDIC employees.                                 • FDIC human resources and accounting systems use employee identification
                                                  numbers instead of SSNs.
Among other things, the            Source: OIG Analysis.
Privacy Act of 1974 requires
federal agencies to limit the      We identified opportunities for the FDIC to strengthen its privacy program for protecting
collection, disclosure, and use    personal employee information, including:
of personal information
maintained in systems of           • Developing an overarching privacy policy to ensure coordination between the CPO
records and to establish             and Privacy Act Clearance Officer and updating SORNs pertaining to employee
reasonable safeguards over           information, especially information maintained by contractors.
those records.                     • Ensuring that contracts, for which the scope requires contractors to maintain personal
                                     employee information, contain adequate references to the Privacy Act, appropriate
In July 2005, the Director,          confidentiality clauses, and signed confidentiality agreements.
Division of Administration         • Conducting some form of security review or obtaining assurances through third-party
(DOA), requested that we             security reviews for contractors and vendors that maintain personal employee
perform an evaluation of this        information in electronic form.
area. Our objective was to
evaluate the FDIC’s policies,      These additional controls will help to ensure that the FDIC complies fully with privacy-
procedures, and practices for      related legislation and regulations; identifies personal employee information maintained
safeguarding personal              by the FDIC and its contractors that needs to be protected; and implements sufficient
employee information in            administrative, physical, and technical controls over such information.
hardcopy and electronic form.
                                   Recommendations and Management Response

To view the full report, go to     We made 15 recommendations to strengthen the FDIC’s privacy program. The
www.fdicig.gov/2006reports.asp     Corporation generally concurred with our report and agreed to take corrective action on
                                   12 recommendations. The FDIC indicated, and we concur, that actions taken and/or
                                   controls in place were sufficient to address the remaining three recommendations.
                               TABLE OF CONTENTS
BACKGROUND                                                                                  1

EVALUATION RESULTS                                                                          2

FDIC’S PRIVACY PROGRAM                                                                      3

     Chief Privacy Officer Brought Renewed Focus to Corporate Privacy Program               3

AREAS FOR IMPROVEMENT – PRIVACY PROGRAM                                                     6

     Overarching Privacy Policy Needed to Coordinate CPO and Traditional Privacy Act        6
     Responsibilities

     The FDIC Needs to Update and Republish the UPS SORN and Revise Other SORNs             8

     Recommendations                                                                        11

FDIC PRACTICES AND INITIATIVES TO PHYSICALLY SAFEGUARD PERSONAL                             12
INFORMATION

     The FDIC Has Established Practices and Initiatives for Safeguarding Personal           13
     Employee Information
AREAS FOR IMPROVEMENT – PHYSICAL SAFEGUARDS                                                 15

     Contracts Did Not Always Contain Privacy Act References, Confidentiality Clauses, or   15
     Signed Confidentiality Agreements

     Safeguards Over OPFs Were Less Stringent in Regional Offices, and DOA Continues        18
     to Maintain Unofficial Personnel Files

     Student Interns Continue to Have Access to Personal Employee Information               20

     Mentoring Contractor Is Being Provided SSNs Without a Business Need                    21

     Recommendations                                                                        22

FDIC PRACTICES AND INITIATIVES FOR SAFEGUARDING ELECTRONIC PERSONAL                         23
INFORMATION

     The FDIC Has Taken Proactive Steps to Identify Systems Containing SSNs                 23

     The FDIC Completed Privacy Impact Assessments for Systems                              24
     Identified as Containing SSNs

     FDIC Human Resources and Accounting Systems Limit the Use of SSNs                      26


AREAS FOR IMPROVEMENT – ELECTRONIC SAFEGUARDS                                               27

     Opportunities May Exist to Strengthen Document-Level Controls Over Electronic          27
     Documents Containing Privacy Act or Sensitive Information
      The FDIC Needs to Require Some Form of Third-Party Security Review for Contractors    28
      and Vendors That Maintain Personal Employee Information in Electronic Form

      Recommendations                                                                       31

MATTERS FOR FURTHER CONSIDERATION                                                           32

      Additional Initiatives Could Be Considered for Increasing Controls for Safeguarding   32
      Personal Employee Information
CORPORATION COMMENTS AND OIG EVALUATION                                                     34

APPENDIX I: Objective, Scope, and Methodology                                               36
APPENDIX II: Overview of Applicable Laws and Regulations Related to Privacy                 38
APPENDIX III: Responsibilities of the Chief Privacy Officer                                 39
APPENDIX IV: Definitions for Privacy Act and Other Forms of Sensitive Information           40
APPENDIX V: FDIC Systems of Records Containing Personal Employee Information                41
APPENDIX VI: Types of Information Maintained in the Unofficial Personnel System SORN        42
APPENDIX VII: Corporation Comments                                                          43
APPENDIX VIII: Management Response to Recommendations                                       52


TABLES:
Table 1: FDIC Privacy Program Initiatives                                                   5
Table 2: OIG Observations Regarding the UPS Notice                                          9
Table 3: DOA and DOF Sources and Uses of Personal Employee Information                      12
Table 4: DOA and DOF Contracts Involving Personal Employee Information                      15
Table 5: OPF File Room Practices and OIG Observations                                       19
Table 6: OIG Review of Selected PIAs                                                        25
Table 7: AICPA/CICA Trust Services Principles and Criteria                                  30
                                   Acronyms

AICPA   American Institute of Certified Public Accountants
AO      Administrative Officer
APM     Acquisition Policy Manual
ARMS    Automated Records Management System
ASB     Acquisition Services Branch
BAS     Benefits Allocation System
CDSSC   Corporate Data Sharing Steering Committee
CHRIS   Corporate Human Resources Information System
CICA    Canadian Institute of Chartered Accountants
CIO     Chief Information Officer
CO      Contracting Officer
COTS    Commercial-off-the-Shelf
CPO     Chief Privacy Officer
CTAW    Corporate Time and Attendance Worksheet
CU      Corporate University
CWG     Collaborative Working Group
DIT     Division of Information Technology
DMB     Delivery Management Branch
DOA     Division of Administration
DOF     Division of Finance
DOI     Division of Insurance
DSC     Division of Supervision and Consumer Protection
EAB     Enterprise Architecture Board
EIN     Employee Identification Number
ETVPS   Electronic Travel Voucher Processing System
FISMA   Federal Information Security Management Act
FOIA    Freedom of Information Act
FTC     Federal Trade Commission
HRB     Human Resources Branch
IRS     Internal Revenue Service
ISS     Information Security Staff
IT      Information Technology
NFC     National Finance Center
NFE     New Financial Environment
NPRC    National Public Records Center
OIG     Office of Inspector General
OMB     Office of Management and Budget
OPF     Official Personnel Folder
OPM     Office of Personnel Management
PIA     Privacy Impact Assessment
RMS     Rights Management Services
SMS    Security Management Section
SORN   System of Records Notice
SOW    Statement of Work
SSN    Social Security Number
T&A    Time and Attendance
TIN    Tax Identification Number
UPF    Unofficial Personnel File
UPS    Unofficial Personnel System
Federal Deposit Insurance Corporation                                                                         Office of Audits
801 17th Street NW, Washington, DC 20434                                                         Office of Inspector General



DATE:                                  January 6, 2006

MEMORANDUM TO:                         Douglas H. Jones
                                       Acting General Counsel

                                       Michael E. Bartell,
                                       Chief Information Officer and
                                       Director, Division of Information Technology

                                       Arleas Upton Kea
                                       Director, Division of Administration



FROM:                                  Russell A. Rau [Electronically produced version; original signed by Russell A. Rau]
                                       Assistant Inspector General for Audits

SUBJECT:                               FDIC Safeguards Over Personal Employee Information
                                       (Report No. 06-005)

In response to a security breach involving unauthorized access to personal employee
information on a large number of current and former FDIC employees, the Director, Division of
Administration (DOA) requested that we evaluate the FDIC’s safeguards over personal
employee information. For purposes of this review, we defined personal employee information
to be information in an identifiable form, including an employee’s name, home address, and
social security number (SSN).1 We focused our work on safeguards over SSNs because the
security breach involved the unauthorized access and misuse of SSNs. The objective of our
review was to evaluate the FDIC’s policies, procedures, and practices for safeguarding personal
employee information in hardcopy and electronic form. Additional details on our objective,
scope, and methodology are provided in Appendix I of this report.

BACKGROUND
The Federal Trade Commission (FTC) defines identity theft as “a fraud that is committed or
attempted, using a person’s identifying information without permission.” Between January and
December 2004, Consumer Sentinel, the complaint database developed and maintained by the
FTC, received over 635,000 consumer fraud and identity theft complaints. Consumers reported
losses from fraud of more than $547 million.

In March 2005, the Office of Inspector General (OIG) notified the FDIC that a small number of
current and former FDIC employees were apparent victims of fraud. In June 2005, the FDIC
became aware that as a result of the apparent fraud, personal employee information for all FDIC
employees in an official pay status as of July 2002 had been compromised. The FDIC promptly
notified all current and former employees in pay status as of July 2002 of the compromise.

1
  The Office of Management and Budget (OMB) defines “information in an identifiable form” as information in a
system or on-line collection that directly identifies an individual (e.g., name, address, SSN or other identifying code,
telephone number, e-mail address, etc.) or by which an agency intends to identify specific individuals in conjunction
with other data elements.




                                                            1
The Privacy Act of 1974 is the primary statute that regulates the federal government’s uses of
personal information. The Privacy Act has been augmented by a number of other laws and
regulations, including the E-Government Act of 2002, Section 208(e); the Federal Information
Security Management Act of 2002 (FISMA); Section 522 of the Transportation, Treasury,
Independent Agencies, and General Government Appropriations Act, 20052 (referred to as
Section 522 for purposes of this report); and OMB Circular No. A-130, Management of Federal
Information Resources, Appendix I, Federal Agency Responsibilities for Maintaining Records
About Individuals (OMB Circular A-130, Appendix I). These laws and regulations have required
government agencies to enhance and report on their privacy programs. Appendix II lists and
describes the laws and regulations applicable to privacy.

The FDIC has had a privacy program since the inception of the Privacy Act. The FDIC Legal
Division’s Freedom of Information Act-Privacy Act Group (FOIA-PA Group) has responsibility for
corporate-wide compliance with the Privacy Act. Under the Privacy Act, the FDIC is responsible
for:

•   Maintaining in its systems of records3 only such information necessary and relevant to a
    function that the Corporation is required to perform either by statute or by executive order of
    the President.
•   Ensuring that no records are maintained describing how an individual exercises rights
    guaranteed by the First Amendment.
•   Preparing and publishing a public notice of the establishment or revision of a system of
    records in the Federal Register, known as a System of Records Notice (SORN).
•   Supplying a “Privacy Act Notice” to each individual from whom the Corporation collects
    information that informs the individual of the authority for the solicitation of information;
    whether disclosure of the information is mandatory or voluntary; the principal purposes for
    which the information will be used; the routine uses to be made of the information; and the
    effects, if any, of not supplying all or part of the information.
•   Establishing reasonable administrative, technical, and physical safeguards to assure that
    records are disclosed only to those who are authorized to have access.
•   Ensuring that all records maintained are accurate, relevant, timely, and complete.

EVALUATION RESULTS

The FDIC has a corporate-wide program for protecting personal employee information, has
appointed a Chief Privacy Officer (CPO) with responsibility for privacy and data protection
policy, and is making efforts to enhance its privacy program in response to legislative
requirements and breaches of FDIC employee information.

However, we identified opportunities for the FDIC to strengthen its privacy program for
protecting personal employee information. These additional enhancements will help to ensure
that the FDIC: complies fully with privacy-related legislation and regulations; identifies personal
employee information maintained by the FDIC and its contractors that needs to be protected;
and implements sufficient administrative, physical, and technical controls over such information.



2
 This Act is division H of the Consolidated Appropriations Act, 2005, Public Law No. 108-447.
3
 A system of records refers to a group of records under the control of an agency from which information is retrieved
by the name of the individual or by some other identifying particular assigned to the individual.




                                                          2
    FDIC’S PRIVACY PROGRAM

In 2005, the FDIC appointed a CPO with overall responsibility for the Corporation’s privacy
program and designated a Privacy Program Manager to support the CPO in developing and
implementing corporate privacy requirements. The CPO is in the process of implementing a
number of privacy-related initiatives, including privacy training programs, to ensure FDIC
employees and contractors are aware of and follow privacy requirements, policies, and
practices.

However, the FDIC could do more to: (1) notify corporate employees about Privacy Act
requirements and responsibilities and the existence of, routine uses for, and safeguards over
personal employee information and (2) ensure effective implementation of Privacy Act
provisions. In this regard, the FDIC lacks an overarching privacy policy to coordinate the CPO
and traditional Privacy Act functions, specify key roles and responsibilities, and define key
Privacy Act and sensitive information terminology. Further, the FDIC’s Privacy Act directive is
outdated and does not include roles and responsibilities for system managers who maintain
records covered by a SORN. The FDIC could improve the Unofficial Personnel System (UPS),
a SORN that has not been updated or republished in the Federal Register since 1989. The
system covers a number of FDIC employee records, including records pertaining to parking
permits, personnel awards, dental insurance, savings plans, retirement benefits, life insurance
documents, and employee locator information. The Corporation could also improve other
selected SORNs by disclosing that SSNs are maintained in these systems of records. These
improvements will help ensure that the FDIC fully complies with the Privacy Act provisions.

Chief Privacy Officer Brought Renewed Focus to Corporate Privacy Program

In March 2005, in response to Section 522, the Chairman appointed the Chief Information
Officer (CIO) and Director, Division of Information Technology (DIT), as the CPO for the FDIC.4
In the appointment letter, the Chairman designated the CPO “… with responsibility for those
duties assigned to that position by law and by administrative action, and with overall
agency-wide responsibility for information privacy issues.” The Legal Division prepared a
memorandum describing the roles and responsibilities of the designated privacy official and
subsequently provided its analysis to the CPO, outlining CPO requirements and responsibilities.
Appendix III presents information from the Legal Division memorandum describing CPO
responsibilities, reporting requirements, and other specific tasks.

The CPO brought a renewed focus to the FDIC’s privacy program and introduced a number of
initiatives, including establishing a task force to evaluate FDIC procedures over sensitive
information maintained electronically, designating a Privacy Program Manager to enhance the
FDIC’s privacy program, and addressing OMB’s FISMA-related reporting guidance regarding
privacy.

Risk Mitigation Project Team: In early 2005, the CIO established the Risk Mitigation Project
Team (Team) to evaluate areas within the Corporation where new or improved procedures
might be needed with respect to safeguarding sensitive information held by the FDIC in an
electronic format. For the first phase of the project, the Team members chose to limit their
review to electronic information that is stored, transmitted, or transported outside the FDIC. On

4
 The Director, DIT, was also designated as the FDIC’s senior official for privacy for purposes of OMB’s Memorandum
M-05-08, Designation of Senior Agency Official for Privacy, dated February 11, 2005.




                                                        3
March 30, 2005, the Team submitted a memorandum to the CIO Council5 that identified three
general areas in which the Team thought immediate attention was necessary to develop:

•     an FDIC-wide policy on what is to be done if sensitive personal information is lost or
      inappropriately disclosed,
•     a single policy or a centralization of all FDIC policies on safeguarding sensitive information,
      and
•     a corporate culture that embraces the importance of protecting sensitive information.

The Team prepared:

•     a brochure covering protection of sensitive data, protection of mobile data storage devices
      (such as laptops and flash drives), the importance of rapidly reporting the loss or theft of
      these items, and a contact number; the brochure was later enhanced to cover protection of
      sensitive data in hardcopy as well as electronic format;
•     a wallet-sized card containing the contact information for reporting the loss or theft of data or
      mobile storage devices; and
•     a Web site providing online reference to protection of data and mobile storage devices and
      the way to report losses of data or devices.

In October 2005, the CPO sent a global message to all FDIC employees and contractors in
regard to protecting sensitive information. The CPO’s message announced: the impending
release of the brochure and the wallet-sized card to employees and contractors; that the Privacy
Web site had been posted; and that DIT was issuing luggage tags with FDIC contact information
to employees and contractors with FDIC laptops in the event that the laptop was lost or stolen.
FDIC Privacy Program Manager Enhancements: The CPO designated a Privacy Program
Manager in April 2005 to enhance and implement a comprehensive privacy program. The
objective of the CPO’s enhanced privacy program is to ensure that the FDIC is taking
appropriate steps to protect personal information from unauthorized use, access, disclosure, or
sharing and to protect associated information systems from unauthorized access, modification,
disruption, or destruction. Table 1, on the following page, depicts the numerous initiatives of the
privacy program and their status as of October 31, 2005.

The CPO also indicated that his office was performing a gap analysis between the Legal
Division’s list of CPO requirements, discussed earlier, and privacy program initiatives in place.
The Privacy Program Manager kept us apprised of developments in the privacy program
through periodic status reports on the work products supporting the Program, the staff assigned
to various initiatives, and the estimated completion dates for the initiatives.




5
    The FDIC’s CIO Council advises the CIO on all aspects of adoption and use of information technology at the FDIC.




                                                           4
 Table 1: FDIC Privacy Program Initiatives
Area      Initiative                   Estimated                              Status as of October 31, 2005
                                       Completion
Governance     Create a senior-level Privacy Advisory    November 2005        Privacy Advisory Council directive was drafted, but a
               Council to advise the CPO.                                     decision was made to incorporate these responsibilities
                                                                              into the mission of the CIO Council, whose members
                                                                              will vote on the change to the charter during a
                                                                              November 2005 meeting.
Policy         Develop an approach for reviewing         November 30, 2005    Circular 1031.1 has been updated and is currently
               and consolidating existing privacy                             being processed for approval within the Corporation.
               directives and policies.                                       Circular will be retained.
                                                                              As part of the overarching privacy policy, prepared a
                                                                              list of directives, policies, and Web sites that contain
                                                                              privacy-related requirements. Plan to perform analysis
                                                                              of and determine how, collectively, the directives,
                                                                              policies, and Web sites protect sensitive personal data.
Privacy        Establish a Web site providing a single    Completed           Privacy Program Web site www.fdic.gov/about/privacy
Web site       source for privacy requirements,                               available in early September.
               policy, education, reference, and
               documentation.
Privacy        1. Privacy Briefing for senior            1. Completed        1. CIO Council training completed on September 6,
Training       managers.                                                     2005.
               2. Standalone online privacy training     2. Completed        2. October global e-mail sent to all employees and
               for all employees and contractors.                            contractors regarding mandatory privacy training.
               3. Approach for developing online         3. December 2005    3. Security staff review indicated that the Department of
               privacy training as part of annual                            Interior (DOI) training module might be a good
               Security Awareness training for all                           substitute for current FDIC Security module, with minor
               FDIC employees.                                               strengthening of the Privacy portion.
               4. Approach for developing in-depth       4. December 2005    4. Pending decision on DOI module, which could also
               online privacy education.                                     be used for in-depth training.
               5. Classroom privacy training.            5. Currently not    5. A 96-slide PowerPoint presentation is available but
                                                         contemplated        needs Corporate University “branding”.
Privacy        1. Prepare an e-mail to all employees     1. Completed         1. October global e-mail sent to all employees and
Awareness      and contractors regarding protection of                        contractors.
               sensitive information.
               2. Send a package of material to          2. Completed         2. Distribution of brochure and wallet card to
               employees and contractors, consisting                          employees and contractors began on
               of a brochure, wallet-sized card, and a                        October 18, 2005. Luggage tags were issued to laptop
               luggage tag, addressing the need to                            users.
               protect sensitive data in electronic or
               paper format.                                                  3. Current procedures have been updated and sent to
                                                                              the Privacy Program Working Group for concurrence
               3. Update Incident Reporting and          3. November 2005     prior to implementation. A meeting was scheduled for
               Response Procedures.                                           the week of November 14, 2005 to discuss final
                                                                              changes.
               4. Prepare articles on the privacy        4. Ongoing           4. Article appeared in the FDICNews September 2005
               program for the FDICNews.                                      issue. The next article is slated for the December 2005
                                                                              issue.
Privacy        A Privacy Impact Assessment will be       Completed            All Privacy Impact Assessments have been completed
Impact         prepared for each information system                           and posted on the Privacy Program Web site.
Assessments    containing personal information.
Reporting      1. FISMA Section D Privacy.               1. Completed          1 and 2. Final transmittal to OMB occurred on
                                                                               October 7, 2005.
               2. OMB A-130 Reviews.                     2. Completed
                                                                               3. In planning phase. Meeting was held with Privacy
               3. Initiate review of SORNs.              3. December 2005      Act Clearance Officer.
               4. Memorandum to the Inspector            4. Completed          4. Memorandum was sent to the Acting Inspector
               General from the CPO.                                           General on September 15, 2005.
  Source: July 2005 Privacy Act Presentation to the FDIC Operating Committee and Privacy Program Status Reports.




                                                                  5
FISMA Section D, Privacy, Questions: The OMB’s June 13, 2005 memorandum (M-05-15)
entitled, FY 2005 Reporting Instructions for the Federal Information Security Management Act
and Agency Privacy Management, directs the senior agency official for privacy to answer a
series of questions regarding the agency’s privacy programs. The OMB memorandum also
encourages agency Inspectors General to provide meaningful information on their respective
agency’s privacy program and activities. The CPO provided a memorandum to the OIG, as
required, detailing the FDIC’s privacy and data protection policies and procedures, summarizing
the Corporation’s use of information in an identifiable form, and verifying the CPO’s intent to
ensure that the Corporation’s privacy program complies with federal statutes and federal and
corporate policies and procedures.6

AREAS FOR IMPROVEMENT – PRIVACY PROGRAM
The FDIC has taken or initiated actions designed to strengthen and enhance its privacy
program. However, the FDIC could do more to communicate Privacy Act requirements and
responsibilities to its employees and to ensure effective implementation of Privacy Act
provisions. In this regard, the FDIC needs to develop policy to coordinate CPO and Privacy Act
requirements. The FDIC also needs to update the UPS SORN and revise other SORNs.

Overarching Privacy Policy Needed to Coordinate CPO and Traditional Privacy Act
Responsibilities

Section 522, enacted on December 8, 2004, requires, within 12 months of the enactment, that
each agency establish and implement comprehensive privacy and data protection procedures
governing the agency’s collection, use, sharing, disclosure, transfer, storage, and security of
information in an identifiable form relating to agency employees and the public. Such
procedures should be consistent with legal and regulatory guidance, including OMB regulations,
the Privacy Act, and the E-Government Act.

Existing Privacy Act Directive: FDIC Circular 1031.1, The Privacy Act of 1974: Employee
Rights and Responsibilities, dated March 29, 1989, offers guidance to employees about the
rights provided and the responsibilities imposed by the Privacy Act. Circular 1031.1 was last
revised in 1989. The Corporation is updating Circular 1031.1 and recently transmitted a draft
directive to divisions and offices for review and comment. In its present and revised form, the
circular includes general responsibilities for the Corporation and employees, definitions of the
terms “record” and “system of records,” and procedures for access to records.

However, neither this circular nor other FDIC directives provide a comprehensive description of
the FDIC’s privacy and data protection procedures. Elements that should be addressed include:

•   the role, responsibilities, and coordination activities of the CPO, Privacy Program Manager,
    the Privacy Act Clearance Officer, and FOIA-PA Group;


6
  The OIG issued Report No. 05-033, Response to Privacy Program Information Request in OMB’s Fiscal Year 2005
Reporting Instructions for FISMA and Agency Privacy Management, dated September 2005. The report concluded
that although the FDIC had taken a number of actions to protect information in an identifiable form, the FDIC needed
to complete ongoing initiatives related to: (1) identifying all FDIC-maintained information in an identifiable form and
taking appropriate actions to ensure this information is properly protected; (2) reviewing privacy policies and
procedures to ensure they are current, comprehensive, and complete; and (3) implementing a corporate-wide training
and education program, including job-specific training where appropriate.




                                                          6
•   definitions for Privacy Act information and for other sensitive information terminology, such
    as “personally identifiable information” and “information in an identifiable form”;
•   references to key privacy-related federal laws, in addition to the Privacy Act, such as the
    E-Government Act of 2002, Paperwork Reduction Act, FISMA, and Section 522;
•   OMB privacy-related requirements, such as OMB Circular No. A-130, Appendix I;
•   roles and responsibilities of system managers; and
•   procedures for creating, altering, or terminating a system of records.

Privacy Program Initiative on Policy: As of October 31, 2005, the FDIC’s Privacy Program
Working Group had completed its research of existing corporate directives and policies that
apply to privacy and started work on analyzing the directives, policies, and Web sites that
contain privacy-related requirements to determine how the various sources work together to
protect the FDIC’s sensitive personal data. By November 30, 2005, the Privacy Program
Working Group planned to develop an approach for developing an overall policy on privacy
following the review of legal requirements and existing privacy-related policies and procedures.

The FDIC’s Privacy Program Working Group should accelerate its activities in this area,
especially in light of the December 8, 2005 date by which Section 522 stipulates that agencies
are expected to implement comprehensive privacy and data protection procedures and
strategies. The Privacy Program Working Group should consider the essential elements
identified above in developing the overarching privacy directive.

Definitions for Privacy Act and Other Forms of Sensitive Information: The FDIC could
benefit from using more clearly defined terms for Privacy Act and other sensitive information;
defining the relevant legal framework to be applied, depending on the type of information; and
establishing corresponding processes and procedures for safeguarding various types of
information. We researched FDIC directives, circulars, and guidance as well as privacy-related
laws and regulations to identify a standard definition for personal employee information and
sensitive information. We identified numerous definitions in the documents we reviewed, some
of which were similar and others that differed from each other. Some notable examples include:

•   FDIC Circular 1031.1: Cites the Privacy Act definition of a “record” as any item, collection,
    or grouping of information about an individual that is maintained by an agency, including, but
    not limited to, his or her education, financial transactions, medical history, and criminal or
    employment history that contains his or her name, or the identifying number (such as an
    SSN), symbol, or other identifying particular assigned to the individual, such as a fingerprint
    or voice print or a photograph.
•   FDIC Web Privacy Guide: Defines personal information (or “personally identifiable
    information”) as any data that identifies an individual, such as, name, e-mail address, home
    address, other physical address, telephone number, SSN, birth date, place of birth, birth
    certificate number, and any other data that identifies an individual.
•   OMB Guidance for Implementing the Privacy Provisions of the E-Government Act of 2002:
    Uses the term “Information in Identifiable Form” and defines the term as information in an
    information technology (IT) system or online collection (a) that directly identifies an individual
    (e.g., name, address, SSN, or other identifying number or code, telephone number, e-mail
    address, etc.) or (b) by which an agency intends to identify specific individuals in conjunction
    with other data elements, i.e., indirect identification.

None of the guidance we reviewed contained a standard definition of personal employee
information. A standard definition could help ensure that all FDIC divisions and offices




                                                  7
consistently safeguard similar types of personal employee information. Appendix IV highlights
some of the definitions contained in the various documents.

The FDIC Needs to Update and Republish the UPS SORN and Revise Other SORNs

The Privacy Act describes a system of records as a group of any records under the control of an
agency from which information is retrieved by the name of an individual or by some identifying
number, symbol, or other particular identifier assigned to the individual. The Privacy Act
requires that when agencies establish or make changes to a system of records, they must notify
the public by a notice published in the Federal Register, which includes, among other things, the
type of data collected, the types of individuals about whom information is collected, the intended
routine uses7 of the data, and procedures that individuals can use to review the information.
Such SORNs provide FDIC employees and the public with information about the type of
personal information the FDIC maintains on individuals, where that information is maintained,
and the technical and administrative controls for safeguarding the information. Moreover, the
SORN process helps to identify for the FDIC the type of information that needs to be protected.

OMB’s guidance to agencies on implementing the Privacy Act states that the public notice
provision is a key element of one of the Privacy Act’s basic objectives, namely, to foster agency
accountability through a system of public scrutiny. OMB Circular A-130, Appendix I, requires
that agencies conduct biennial reviews of each SORN to ensure that the notice accurately
describes the system of records and to publish changes in the Federal Register.

The FDIC currently maintains 24 systems of records whose notices were published at various
times in the Federal Register. We determined that 12 of the 24 systems of records contained
personal employee information. Detailed information about the location, storage medium, and
safeguards listed in each of the 12 system of records is included in Appendix V. The FDIC
amended and republished all of its SORNs in 2001, except for the SORN for the UPS. The
FDIC has neither updated nor republished the SORN for the UPS since August 31, 1989. The
UPS notice makes outdated references to:

•   FDIC divisions and offices that are no longer part of the organizational structure (e.g., the
    Division of Liquidation, the Division of Accounting and Corporate Services, and the FDIC
    Office of Personnel Management).
•   Discontinued corporate programs, such as the Upward Mobility Program.
•   Incorrect system managers (e.g., the Division of Accounting and Corporate Services is listed
    as the system manager for Parking Permit Records and Employee Locator Records. DOA
    is now the system manager for those records).

In addition, because the UPS SORN has not been updated since 1989, the SORN does not
address electronic storage media except for computer discs. Further, the UPS SORN states
that computer discs are accessed only by authorized personnel, but the SORN does not
mention system safeguards, passwords, access controls, or encryption in the storage section of
the SORN, which is intended to identify the media in which records are stored. Furthermore,
the SORN does not indicate the purpose for the system of records, which subsequent to 1989,
became a requirement by the Office of the Federal Register.



7
 According to the Privacy Act, the term “routine use” means, with respect to the disclosure of a record, the use of
such record for a purpose that is compatible with the purpose for which it was collected.




                                                           8
  Over time, changes in agency operations or functions may result in increased differences in the
  records that are contained within a common system of records. Groups of records that once
  were appropriately combined into a common system may become sufficiently different so that
  they should be divided into separate systems. In this regard, the UPS SORN identifies seven
  categories of records broadly defined as personnel-related records that are maintained in
  addition to those kept in the Office of Personnel Management-required Official Personnel
  Folders (OPF). Our observations regarding the UPS SORN are in Table 2. Appendix VI lists
  and describes the seven categories of records in the UPS SORN.

  Table 2: OIG Observations Regarding the UPS Notice
            Condition                Criteria                                                   Effect
Updates to    FDIC SORN 30-64-0015, UPS,          The Privacy Act requires that agencies        Increases the risk
the UPS       has not been updated since 1989     maintain all records that are used by the     the FDIC will make
SORN          and is listed in the FDIC Rules     agency in making any determination about      an adverse
              and Regulations (30-64-0001, et     any individual with such accuracy,            determination about
              seq.) with a note stating “to be    relevance, timeliness, and completeness       an individual on the
              revised at a later date.”           as is reasonably necessary to ensure          basis of incorrect
                                                  fairness to the individual.                   information.

                                                  OMB Circular No. A-130, Appendix I
                                                  requires agencies to review SORNs
                                                  biennially to ensure they accurately
                                                  describe the system of records.

Publication   The FDIC has not republished        The Privacy Act requires agencies to          Without a
of the UPS    the UPS SORN in the Federal         publish in the Federal Register a notice of   republished, updated
SORN in       Register or on FDIC’s public        the existence and character of the system     UPS SORN, the
the Federal   Web site. The FDIC revised all      of records, when the system is established    FDIC cannot ensure
              of its SORNs in 2001. Since that    or revised.                                   that its employees
Register      time, the UPS SORN, published                                                     can exercise their
              in the Federal Register, has        In response to a 1998 Presidential            rights to access,
              consisted of a qualifier that the   Memorandum regarding compliance with          review, and amend
              SORN will be revised at a later     the Privacy Act, OMB Circular M-99-05,        the records in the
              date.                               Attachment B, required agencies to review     SORN, as
                                                  their systems of records to ensure that       guaranteed by the
                                                  Federal Register notices were up-to-date      Privacy Act.
                                                  and to publish a notice for any system of
                                                  records previously overlooked.

Categories    The UPS SORN includes a             OMB Circular M-99-05, Attachment B, also      Inappropriately
of Records    number of sources of employee       required agencies to ensure their systems     combined groups of
Within the    information that could be           of records were not inappropriately           records into one
UPS SORN      presented in separate SORNs.        combined. OMB noted that groups of            system of records
              The SORN references the             records that have different purposes,         limits the FDIC’s
              following seven categories of       routine uses, or security requirements, or    ability to ensure that
              records:                            that are regularly accessed by different      routine uses
                                                  members of the agency staff, should be        appropriate for
              1.   Personal Information on        maintained and managed as separate            certain groups of
                   individuals.                   systems of records to avoid possible lapses   records do not also
              2.   Parking Permit Records.        in security.                                  apply to other groups
              3.   FDIC Personnel Awards.                                                       of records simply
              4.   Dental Insurance Records.                                                    because they have
              5.   Employee Locator Records.                                                    been placed together
              6.   Upward Mobility Files.                                                       in a common system
              7.   FDIC Savings Plan Records.                                                   of records.
  Source: OIG analysis.




                                                          9
Contractor Information: We observed that, although not specifically required to do so, the
UPS SORN does not indicate that Privacy Act information is located at an FDIC contractor’s
facility or that personal employee information data is being maintained by FDIC contractors. For
example, the UPS SORN discusses the following information but does not refer to contractors
or vendors doing work for the FDIC in these specific areas:

•   FDIC Savings Plan Information: The FDIC has agreements with a trustee for investment
    and recordkeeping of the FDIC Savings Plan funds and provides the trustee Savings Plan
    data, records, computer programs, software, reports, and other documents.
•   Dental Benefits Information: The FDIC has a contract with a vendor to provide
    administrative services for the FDIC Dental Benefits Program, including claim payments.
•   Life Insurance Benefit Program Information: The FDIC has a contract with a vendor to
    provide life insurance for employees, dependents, and retirees.

The UPS SORN does identify that disclosures of information may be made, where relevant, to
(1) the dental insurance carrier in support of a claim for dental insurance benefits and (2) the
Savings Plan vendor so that it can carry out its functions as investor of the FDIC Savings Plan
funds. However, the UPS SORN states that the records are located in the FDIC Office of
Personnel Management, division or office levels in the FDIC Washington office, regional offices,
and field offices. Records containing personal employee information are also located and/or
maintained at contractor locations. Legal Division officials agreed to look into the matter.

We also discussed this issue with an OMB privacy official. The official stated that the focus
should be on where the employee can get access to the records at issue, where they can
request amendment to those records, and who is performing the accounting requirement under
the Privacy Act relative to disclosures to third parties. If the location for such access,
amendment, and accounting is a contractor location, then the location-of-records section of the
SORN should indicate where the records are located. Moreover, according to the official, if the
contractor is performing Privacy Act-related responsibilities, the agency’s contract with the
contractor should specify those responsibilities. The OMB official noted that even if access,
amendment, and accounting are handled through the agency, nothing precludes the agency
from indicating in the SORN that the records are maintained by a contractor.

Observations on the FDIC’s Other SORNs: We observed that SORNs did not always fully
describe certain required information, such as all locations where the records are maintained or
certain other categories of records maintained in the system. In addition, although not required
to do so, several SORNs did not disclose that SSN information was contained in the system of
records. For example:

•   Employee Training Information Records (30-64-0007): The categories of records in the
    system do not identify the SSN as information contained in the records, but the SORN
    indicates that electronic media are accessible by SSN for retrieval purposes.
•   Financial Information Management Records (30-64-0012): The categories of records in the
    system do not identify the SSN as information contained in the records, but the SORN
    indicates that electronic media are retrievable by SSN or specialized identifying number. In
    addition, the SORN does not reflect Public Transit Subsidy Program8 payments in the
    categories of records in the system, despite the fact that the application for this program

8
 On January 13, 2000, the FDIC approved for corporate employees a Transit Subsidy Program designed to
encourage employees to use mass public transportation, thereby reducing the use of private automobiles for daily
commuting. DOA manages this program.




                                                        10
    specifically identifies the Financial Information Management Records SORN in its Privacy
    Notice.
•   Employee Medical and Health Assessment Records (30-64-0017): The SORN does not
    indicate that the records contain SSNs. In addition, the SORN does not disclose that
    records are located at the FDIC’s 801 Building location. The routine uses stated in the
    SORN do not refer to disclosures to the Department of Health and Human Services with
    respect to the National Directory of New Hires.9
•   Fitness Center Records (30-64-0021): The SORN does not indicate that the records contain
    SSNs. In addition, the SORN does not disclose that records are located at the FDIC’s 801
    Building location.

Recommendations

We recommend that the CPO and General Counsel:

1. Develop and issue an overarching privacy policy to include:

    •   coordination and reporting responsibilities and expectations among the CPO, the Privacy
        Act Clearance Officer and FOIA-PA Group, and SORN system managers;
    •   references to other relevant privacy and information security directives;
    •   key roles and responsibilities, including SORN system manager responsibilities; and
    •   definitions for information subject to the Privacy Act and for other sensitive information
        terminology, such as “personally identifiable information,” and “information in an
        identifiable form.”

2. Revise and republish the SORN for the Unofficial Personnel System to include updated,
   accurate:

    •   information about records maintained;
    •   references to FDIC offices, system managers, and safeguards over information; and
    •   identification in the System Location section of information being maintained by
        contractors or vendors.

3. Determine whether records detailed in the SORN for the Unofficial Personnel System should
   be republished as separate, individual systems of records.




9
  According to the Personal Responsibility and Work Opportunity Reconciliation Act of 1996, as amended, federal
agencies are to provide certain information about newly hired employees to the U.S. Department of Health and
Human Services’ National Directory for New Hires. In 1997, OMB issued suggested “routine uses” statements
regarding disclosure to the Directory.




                                                        11
 FDIC PRACTICES AND INITIATIVES TO PHYSICALLY
 SAFEGUARD PERSONAL INFORMATION

DOA and DOF implemented a number of controls for safeguarding personal employee
information, including administrative and physical safeguards such as: limiting access to human
resources operations and files; securing office space; eliminating SSNs from most forms and
standard reports; and installing personal shredders and locked, high-volume shredding bins.
Further, DOA and DOF had several additional initiatives underway to safeguard information.

However, we found that Human Resource Branch (HRB) contracts did not always contain
Privacy Act references, confidentiality clauses, or signed confidentiality agreements. We also
identified opportunities to increase physical safeguards over personal employee information
such as strengthening controls in regional HRB offices, discontinuing the maintenance of
unofficial personnel files, and developing limitations on information that student interns may
access. We also noted that the FDIC included employees’ SSNs in information on the FDIC’s
mentoring program provided to a contractor, rather than using an alternative identifier. These
improvements will help to ensure that the FDIC implements sufficient physical controls over
personal employee information.

Sources of Personal Employee Information: We focused our review on DOA and DOF
because the two divisions have responsibility for maintaining human resources, payroll, and
supplemental payment information on FDIC employees. Table 3 presents the sections and
branches within DOA and DOF that work with or maintain personal employee information.

Table 3: DOA and DOF Sources and Uses of Personal Employee Information
  Section or Branch                      Sources and Uses of Information
  DOA
  Human Resources Service Center         Official Personnel Folders.
                                         Applications for FDIC employment.
  Benefits Center                        Benefits information (e.g., health, vision, and dental) for current FDIC
                                         employees and retirees.
                                         Benefit files for deceased employees.
  Strategic HR Services and              Disciplinary and adverse action case files.
  Labor/Employee Relations
  Human Resources Information            Employee time and attendance and other payroll records; employee
  Management and Payroll                 personnel action records; and staffing tables.
  Corporate Recruitment and Career       Employee counseling information; employee résumés;
  Management Services                    mentoring program information; and training rosters.
  Facilities Operations Section          Health Units--Employee medical folders.
                                         Fitness Centers--Employee membership and termination of
                                         membership; related payroll deduction forms; and medical history,
                                         clearance, and authorization forms.
  Security Management Section            Personnel suitability (background) investigations on FDIC employees.
  Corporate Support Section              Long-term, off-site records storage and shredding services.
  Management Services Branch             Unofficial Personnel Files for DOA and Corporate University (CU).
  DOF
  Accounting Operations Section         Account reconciliations for: employee receivables; payroll-National
                                        Finance Center (NFC) accounts; employee home purchases and
                                        selling; employee-deferred bonuses; and employee buyouts.
  Receipts and Disbursements            Supplemental payments—life cycle, petty cash.
  Operations Section                    Travel voucher reviews, including Frequent Travel Lodging Stipend and
                                        Travel Card Program.
                                        Relocation payments and buyout payments.
Source: Interviews with DOA and DOF officials.




                                                       12
DOA and DOF business practices and initiatives for safeguarding personal employee
information are discussed in the next section. For each process, we identified: the
administrative, physical, and technical controls over personal employee information; the number
and position of staff with access to the information; systems used to maintain and process the
information; and whether contractors had access to the information. We also observed the
physical location of hardcopy information stored in FDIC office space and verified that physical
security controls were in place.

The FDIC Has Established Practices and Initiatives for Safeguarding Personal Employee
Information

The Privacy Act requires agencies to "establish appropriate administrative, technical, and
physical safeguards to insure the security and confidentiality of records and to protect against
any anticipated threats or hazards to their security or integrity which could result in substantial
harm, embarrassment, inconvenience, or unfairness to any individual on whom the information
is maintained.” In addition, with respect to privacy and security, the Paperwork Reduction Act of
1995 requires agencies to "implement and enforce applicable policies, procedures, standards,
and guidelines on privacy, confidentiality, security, disclosure and sharing of information
collected or maintained by or for the agency" and "identify and afford security protections
commensurate with the risk and magnitude of the harm resulting from the loss, misuse, or
unauthorized access to or modification of information collected or maintained by or on behalf of
an agency.” Both the Privacy Act and the Paperwork Reduction Act are applicable to the FDIC.

The FDIC has established or initiated numerous practices for safeguarding personal employee
information in hardcopy form. DOA has taken the following actions to safeguard personal
employee information:

•   Human Resources (HR) personnel and security management offices that handle or process
    personal employee information are housed in limited access, secured office space.
    Cipher-lock doors have been installed to control access to work space.

•   Official files that contain SSNs, such as OPFs, Labor/Employee Relations case files, and HR
    benefits files, are kept in locked file cabinets and/or rooms with limited and monitored
    access. Individuals conducting OPF file reviews, other than an HR specialist and Legal
    Division representative, must present identification and receive continuous oversight during
    the review.

•   As of June 2004, DOA’s Records Management Unit converted full SSNs to truncated SSNs
    on most FDIC forms.

•   HRB has either discontinued producing most of its standard reports containing SSNs or
    restructured its reports to omit SSNs.

•   HRB headquarters ordered personal shredders for each of its employees. Records
    Management installed secured shredding bins throughout FDIC Headquarters offices. Only
    the vendor and a member of Records Management have keys to the padlocked shredding
    bins.




                                                13
DOF also has taken specific steps to safeguard employee sensitive information:

•   DOF staff views employee SSNs only during the year-end Internal Revenue Service (IRS)
    Form W-210 reconciliation process. The W-2 forms are printed on a special DIT computer,
    DOA staff place the forms in envelopes, and the mailroom sends the forms to FDIC
    employees. DOF stores W-2 forms for 3 years on-site in locked file cabinets inside a
    cipher-locked file room, after which the W-2 forms are shipped to Iron Mountain (an FDIC
    off-site data storage vendor).

•   Similar to DOA, in September 2004, DOF’s Travel Audit Unit reissued its travel policies,
    established the use of a truncated SSN in lieu of the full SSN, and requested deletion of
    SSNs from standard travel forms. A written justification must be submitted to DOF
    management for review in order to use a full SSN on forms.

•   Travel audit, relocation, and credit card files containing personal employee information are
    stored in locked file cabinets or cipher-locked file rooms with limited access.

•   DOF is reviewing its relocation program processes and systems that contain personal
    employee information and is changing its hardcopy forms to only require truncated SSNs.

Further, the FDIC has taken steps to raise FDIC employee awareness about safeguarding
sensitive data, including personal employee information:

•   In November 2004, the Associate Director, HRB, sent a reminder to HR Washington, D.C.,
    staff regarding the guidance for determining what is considered “sensitive information,”
    including FDIC’s Circular 1031.1 on the Privacy Act and United States Office of Personnel
    Management’s (OPM) Operating Manual, The Guide to Personnel Recordkeeping.

•   In August 2005, DOF reissued a memorandum on Managing DOF's Confidential Records,
    previously issued in June 1997 and August 2000. The memorandum reminded staff of the
    importance of safeguarding confidential and sensitive materials and protecting confidential
    information from unauthorized use or disclosure.

•   DIT’s Enterprise Architecture Board (EAB) initiated a corporate-wide survey to collect
    information about sources (electronic as well as hardcopy) of data within the Corporation
    that contain sensitive information and were outside of major information systems. Sources
    of data included in the survey were shared drives, personal drives, Access databases, and
    Excel spreadsheets.

•   The FDIC’s CPO is developing an awareness campaign, including the Privacy Program Web
    site;11 privacy questions in the annual computer security awareness training; and separate
    privacy awareness training mandatory for all employees and contractors. The CPO issued a
    brochure in October 2005 to all employees regarding the safeguarding of sensitive
    information in electronic and hardcopy form.




10
   IRS form W-2 is an individual’s wage and tax statement, which includes information such as name, address, and
SSN.
11
   Privacy Program Web site established as of September 9, 2005.




                                                       14
AREAS FOR IMPROVEMENT – PHYSICAL SAFEGUARDS
Contracts Did Not Always Contain Privacy Act References, Confidentiality Clauses, or
Signed Confidentiality Agreements

The Privacy Act provides that when an agency contracts for the operation by or on behalf of the
agency of a system of records to accomplish an agency function, the agency is responsible for
causing the requirements of the Act to be applied to such a system. Subsection (m) of the
Privacy Act further specifies that any such contractor and its employees are considered to be
employees of an agency under the Privacy Act for purposes of the Act’s criminal penalties.
OMB Circular A-130, Appendix I, describes agency responsibilities for implementing Privacy Act
reporting and publication requirements. The Circular requires agencies, every 2 years, to
conduct a random sample of agency contracts that provide for the maintenance of a system of
records on behalf of the agency to ensure that the wording of each contract makes the
provisions of the Privacy Act binding on the contractor and his or her employees.

We identified a total of 15 DOA and DOF contracts and agreements for employee benefits, file
room maintenance, and other services involving the maintenance of personal employee
information. We reviewed the contract documents and contract files for references to the
Privacy Act, confidentiality clauses, and evidence of signed contractor confidentiality
agreements, as presented in Table 4.

Table 4: DOA and DOF Contracts Involving Personal Employee Information
                                                                                  Signed
                                             Privacy Act     Confidentiality
       Contractor or Vendor                                                    Confidentiality
                                             Reference          Clause
                                                                                Agreement
Benefits Allocation Service (BAS)—         Yes                No                 No
Flexible Cafeteria Benefits Program
Vision Service Plan                        No                 No                 No
Connecticut General Life Insurance         No                 No                 No
Company (CIGNA)
Aon Consulting                             No                 No                 No
MetLife                                    No                 No                 No
Labat Anderson                             Yes                No                 No
JHM Research & Development, Inc.           Yes                No                 No
Contract Consultants                       No                 No                 No
Ikon                                       No                 No                 Yes
Cendant                                    No                 Yes                No
Scheduled Airlines Traffic Offices,        Yes                No                 No
Inc.
Impact Training Systems                    No                 No                 No
Career Development Leadership              No                 No                 No
Alliance
Source: OIG analysis of contracts and contract files.

As shown, we found that the FDIC did not consistently require that DOA and DOF contracts
involving personal employee information include references to the Privacy Act or appropriate
confidentially clauses, or that contractors sign confidentiality agreements. In addition, we
identified two FDIC agreements with vendors that provide financial and payroll services, namely,
T. Rowe Price and NFC. The T. Rowe Price trust agreement included a confidentiality clause,
but not a Privacy Act reference, while the NFC interagency agreement included a Privacy Act
reference, but not a confidentiality clause.




                                                        15
Privacy Act References: The FDIC Acquisition Policy Manual (APM) states that a contractor
who designs, develops, or operates a system of records regarding personal information, in order
to accomplish an FDIC function, must comply with the Privacy Act, and the Contracting Officer
will ensure that the Privacy Act is included in all contracts, as appropriate. As shown in
Table 4, the FDIC’s contract with the BAS to administer the Flexible Cafeteria Benefits Program
contained a one-page discussion requiring the contractor to comply with the Privacy Act and
explaining civil and criminal penalties that could result from Privacy Act violations. However, we
did not find Privacy Act references in other employee benefits contracts. A Legal Division
representative indicated that the benefits contracts should have included references to the
Privacy Act.

Under the Privacy Act, agencies are to require that systems of records operated on the
agency’s behalf under contracts be operated in conformance with the Act. Failure to do so may
result in civil liability to individuals injured as a consequence. Moreover, a Legal Division
representative noted that the Privacy Act is an operational law and that contractors are bound
by the Privacy Act for intentional violations of the Act, regardless of whether the Act is
specifically referenced in a contract. However, the Privacy Act does have limitations, and a
contractor would not necessarily be bound by the Privacy Act in the event of negligent
violations. The Legal Division representative concluded that it was important for FDIC contracts
to reference the Privacy Act in order to hold contractors accountable in the event of violations
resulting from carelessness or negligence.

The Legal Division representative indicated that Legal representatives would work with the
Acquisition Services Branch (ASB) to develop a Privacy Act contract clause, similar to the
clause in the BAS contract and require this clause to be standard language in all FDIC
contracts, whether or not those contracts involve Privacy Act information. Further, the
representative indicated that the Legal Division will work with ASB to issue modifications to
contracts with the other contractors or vendors listed in Table 4 to include Privacy Act
references.

Confidentiality Clauses and Confidentiality Agreements: The FDIC standard contract, used
for most procurement actions, contains the following clause that requires a contractor to
maintain, on a confidential and non-disclosure basis, any information that it acquires from the
FDIC.

       Contractor must ensure the confidentiality of all information, data, and systems provided
       by FDIC or used or obtained by Contractor personnel under this contract and prevent its
       inappropriate or unauthorized use or disclosure. Contractor and all employees working
       on an FDIC contract must sign the Contractor Confidentiality Agreement (attached) no
       later than five (5) business days after starting performance and prior to receiving such
       information, or when receiving their badges, and return the signed Agreements to the
       Contracting Officer. This includes Contractor personnel who are required to work on-site
       at an FDIC facility or have access to FDIC sensitive information or data, systems or
       network. Failure to provide the signed Agreements may result in the removal of the
       employee from performing under the contract.

Further, the FDIC APM states that a contractor shall be required to sign a confidentiality
agreement, prior to being provided the sensitive information, where a contract requires the
rendering of goods or services that are of such a nature that the contractor will receive or might
have access to information of a confidential nature, or where the contractor is required to work
on-site at an FDIC facility, or has access to information of a sensitive nature.



                                                16
As shown in Table 4, most of the contracts that we reviewed did not include the confidentiality
clause. Further, we were unable to find signed contractor confidentiality agreements for most of
the contracts that we reviewed. ASB officials could not definitively explain why the
confidentiality clauses were not included in the signed contracts or why confidentiality
agreements were not executed for these contracts but surmised that ASB staff mistakenly
understood that the clause and confidentiality agreements were required only for DIT-related
information technology contracts.

In Evaluation Report No. 00-006, FDIC’s Information Handling Practices for Sensitive Employee
Data, dated October 11, 2000, we reported that the FDIC did not have a confidentiality
agreement in place for CIGNA, one of the contractors listed in Table 4. Because the FDIC
indicated that it would work with CIGNA to establish a confidentiality agreement, we did not
make a formal recommendation in the 2000 evaluation report. However, the current CIGNA
contract still does not have a signed confidentiality agreement.

According to a Legal Division representative, confidentiality agreements provide an additional
level of protection for the FDIC in the event of Privacy Act violations or inappropriate release of
confidential information. However, the representative indicated that the FDIC would not be
vulnerable in the event that confidentiality agreements were not signed. Nevertheless, the
Legal Division representative indicated that confidentiality agreements are important and that
confidentiality clauses and confidentiality agreements should be included in contracts involving
access to personal employee information.

With respect to whether confidentiality agreements should be required for each contractor
employee, a Legal Division representative stated that, ideally, the FDIC should have an officer
of the contractor sign a single confidentiality agreement on behalf of the contractor and then
certify that individual contractor employees have been apprised of Privacy Act requirements and
the importance of maintaining the confidentiality of FDIC data.

Legal Review of Contract Before Contract Award: We concluded that the HRB contracts
that we reviewed were not consistently subject to review by the Legal Division before contract
award. Legal Division representatives indicated that their division is usually involved in
reviewing the contract solicitation package.12 However, the Legal Division is not always involved
in reviewing the final version of the contract before the contract is signed, and ASB is not
consistently providing the division with executed copies of contracts.

The FDIC APM identifies the Contracting Law Unit within the FDIC’s Legal Division as a
member of the team supporting the FDIC’s contracting process. The unit supports the
development of contracting policy and procedures and provides advice and legal sufficiency
reviews. The APM stipulates procurement responsibilities for the Legal Division, including
requirements to (1) review solicitation packages for contracts of $100,000 or more; (2) review
complex contracting requirements, as requested by the Contracting Officer (CO); (3) provide
advice as required on issues involving contract scope; and (4) provide other assistance as
requested by the CO. The APM does not specifically require that the Legal Division review
contract documents unless requested by the CO. In a prior evaluation, we reported the need to
involve the Legal Division in procurement planning and in the review of key contracting



12
 The solicitation package includes the request for proposal, a draft copy of the proposed contract, and the proposed
SOW.




                                                        17
documents such as the contract and SOW prior to contract execution,13 and we still consider
Legal Division involvement to be a valuable control.

In January 2005, ASB issued an interim policy memorandum establishing a process for
coordinating legal reviews of contractual actions and supporting documents, which specified
that the CO and Contract Specialist are responsible for obtaining the appropriate level of legal
review and approval for solicitation and contracting actions. The contracts discussed in this
report predated ASB’s interim policy. Accordingly, we did not evaluate the effectiveness of the
interim policy in ensuring adequate Legal Division review of key contractual documents.

Safeguards Over OPFs Were Less Stringent in Regional Offices, and DOA Continues to
Maintain Unofficial Personnel Files

OPM issues government-wide guidance on documenting individuals’ federal employment
through its Guide to Personnel Recordkeeping, which, among other things, requires agencies
to:

      •       implement management controls to ensure that personnel records are protected against
              loss or alteration;
      •       ensure that personnel records subject to the Privacy Act are secured against
              unauthorized access (for example, paper or microfiche/microfilmed personnel records
              subject to the Privacy Act should be stored in locked file cabinets or in secured rooms);
      •       limit access to personnel records subject to the Privacy Act to those employees whose
              official duties require such access (limitation applies to paper, microfiche/microfilm, and
              electronic records); and
      •       establish procedures to allow employees or their designated representatives access to
              their own records (procedures should ensure that the records remain subject to the
              agency’s control at all times).

HR Service Center representatives indicated that the FDIC follows requirements within this
guide.

We interviewed officials and observed file room operations for the Headquarters HR Service
Center and HR centers in the Dallas and Atlanta regional offices. We identified one area
wherein the three organizations were not fully complying with OPM guidance. Specifically, the
three centers transfer OPFs to the National Personnel Records Center (NPRC) at varying times,
as shown below, rather than following the OPM-recommended timeframes -- within 90 days of
the employee’s separation from federal service, or for a retirement or death, within 120 days, or
until notification that a claim has been processed.

          •    Headquarters HR Service Center transfers OPFs within 2 months of an employee’s
               resignation/termination, 6 months following a reduction in force, and 1 year after
               retirement or death.
          •    Atlanta HR center transfers an OPF within 1 year following an employee’s
               termination, resignation, reduction in force, retirement, or death.
          •    Dallas HR center transfers an OPF within 6 months following an employee’s
               termination, resignation, reduction in force, retirement, or death.


13
     Evaluation Report No. 04-014, XBAT Contracting and Project Management, dated March 26, 2004.



                                                      18
Timely transfers of OPFs to NPRC could help mitigate the risk of access to personal employee
information. We also observed that the contract SOWs for the HR centers in Dallas and Atlanta
do not specifically identify OPF file room tasks that should be performed. Further, contractor
employees in the headquarters HR Service Center and Dallas HR center were not required to
sign confidentiality agreements. We concluded that the headquarters HR Service Center, and
Atlanta and Dallas HR centers, employ varying levels of controls over OPFs as illustrated in
Table 5.

Table 5: OPF File Room Practices and OIG Observations
                Contractor-Operated              Confidentiality               Tracking OPFs                 Transmission of
                  OPF File Rooms                  Agreements                                                Standard Form 75*
                                                                                                                 (SF-75)
Criteria        As required in the FDIC’s    The FDIC APM requires        The Washington, D.C.,           The Washington, D.C.,
                APM, the SOW should          a confidentiality            contract includes the           contract includes the
                define the work products     agreement when a             requirement to log in and log   requirement to provide
                that are required and        contract requires the        out OPFs utilizing a            information using SF-75
                address all the elements     rendering of goods or        barcoding system.               to other federal and
                necessary for successful     services that are of such                                    non-federal employers
                performance by the           a nature that the                                            regarding FDIC
                contractor.                  contractor will receive or                                   employees.
                                             might have access to
                                             information of a                                             DOA Washington, D.C.,
                                             confidential nature, or                                      HRB officials told us that
                                             where the contractor is                                      DOA expects contractors
                                             required to work on-site                                     to transmit SF-75s via
                                             at an FDIC facility.                                         certified mail and a
                                                                                                          confirmation receipt and
                                                                                                          identified this practice as a
                                                                                                          safeguard.
HQ HR           SOW identifies OPF File      No signed confidentiality    Uses Automated Records          Contractor completes
Service         Room tasks performed.        agreement.                   Management System               SF-75 and faxes to other
Center                                                                    (ARMS) through manual           agency. Does not request
                                                                          keying of SSN in lieu of the    confirmation of receipt.
                                                                          barcoding system. Also
                                                                          maintains a manual log
                                                                          book.
Atlanta HR      SOW does not identify        Confidentiality agreement    Does not use ARMS. Uses         HR completes form.
Center          OPF File Room tasks to       signed by contractor         manual log book and             Contractor mails form to
                be performed.                employee.                    requires that OPFs be           other agency and
                                                                          returned to the file room at    signature of recipient is
                                                                          close of business.              required.

                                                                          Legal staff requires a
                                                                          management request and
                                                                          approval to remove an OPF.
Dallas HR       Contract is a GSA            No signed confidentiality    Does not use ARMS.              Contractor is not
Center          contract for temporary       agreement.                   Uses an index card placed       responsible for any tasks
                personnel services.                                       in a pocket of the temporary    relating to the SF-75.
                SOW identifies the job                                    OPF file.
                classification of services
                contracted – does not
                identify OPF File Room
                tasks to be performed.
OIG             SOW level of detail          Only one contractor          No consistent practice of       Washington, D.C.,
Observations    varies among the three       employee signed a            checking in/out OPFs.           contractor employees do
                contracts.                   confidentiality              Washington, D.C.,               not follow the practice of
                                             agreement.                   contractors do not follow the   transmitting the SF-75 via
                                                                          SOW requirement of utilizing    certified mail or requesting
                                                                          the barcoding system for        a confirmation receipt.
                                                                          checking in/out OPFs.
Source: Interviews with HR service center staff in headquarters and HR center staff in Atlanta and Dallas and OIG
observations and analyses.

* OPM Standard Form 75, Request for Preliminary Employment Data, is used by prospective employers to obtain
pre-employment information about an applicant when the applicant’s OPF is not available for review.




                                                               19
There are opportunities for DOA to strengthen its safeguards for protecting personal employee
information stored in the OPFs. Without strengthening the controls and employing similar
controls over official personnel folders in all HR centers, the FDIC could be more susceptible to
Privacy Act violations or not fully complying with OPM guidance.

Unofficial Personnel Files for DOA and CU Employees: Some FDIC divisions also maintain
“unofficial personnel files” (UPF) or “working files.” These files may contain various types of
records with personal employee information including, but not limited to, SSNs, performance
appraisals, and written notes and memoranda on employee performance. UPFs are included in
the FDIC’s UPS SORN, which states that the routine use for files in this system are for the
employees’ supervisors’ use in preparing general personnel actions.

We met with the Administrative Officers (AO) in DOA, DIT, and Division of Supervision and
Consumer Protection (DSC) to discuss their practices for safeguarding unofficial personnel files.
DOA maintains unofficial personnel files containing training and personnel information on all
DOA as well as CU employees. These files contain copies of the employees’ SF-50s14 which
have SSNs, and the files are housed in locked filing cabinets in a locked file room. DOA told us
that there are few requests to review the working files, and it is unusual to send a working file to
a field office. Usually, employees and managers review the working files in lieu of the OPFs
because of convenience. Although there is limited access to these working files, student interns
may have access because they handle filing personnel information. DIT also told us that
unofficial personnel files are maintained on all DIT employees. The files are stored in locked
filing cabinets in a locked file room with access limited to the AO’s staff.

We learned that DSC no longer maintains UPFs for its employees. In 2002, DSC returned
these files to respective DSC employees. DSC told us that it did not see a need for these files
once DOA decentralized and maintained OPFs in the regional offices. Also, with the exception
of the New York Regional Office, each DSC regional office has an AO with access to personal
employee information in the FDIC’s Corporate Human Resources Information System (CHRIS)
and New Financial Environment (NFE) for the AO’s respective organization. Additionally, DOF
does not maintain UPFs for its employees.

The Privacy Act states that agencies’ systems of records should maintain only information that
is relevant and necessary to a function that the agency is required to perform. OMB guidance
states “in simplest terms, information not collected about an individual cannot be misused and
agencies are to assess the relevance and need for personal information … whenever any
change is proposed in an existing system of records.” DIT and DOA may find it beneficial to
assess the need for maintaining UPFs on DIT, DOA, and CU employees and should consider
adopting DSC’s and DOF’s practices of not maintaining UPFs. Doing so would reduce the
amount of personal information that requires protection.

Student Interns Continue to Have Access to Personal Employee Information

The FDIC’s Student Educational Employment Program consists of two components: (1) the
Student Temporary Employment Program which enables students to earn a salary and meet
financial obligations while continuing their education, and (2) the Student Career Experience
Program which provides students the opportunity to obtain work experience that is directly

14
  OPM SF-50 (Notification of Personnel Action) constitutes the official notice of a personnel action, including
promotions, awards, bonuses, pay adjustments, and retirement plan information. The SF-50 contains personal
employee information, including the employee’s full SSN.




                                                         20
related to their education and career goals with the possibility of converting to a competitive
appointment at the completion of the program. The FDIC’s student interns (except for student
interns employed by the OIG and the Chairman’s Office) are designated as low-risk positions,
and are defined as positions involving duties and responsibilities of limited relation to the FDIC
or a corporate program mission. Low-risk positions are subject to a minimum background
check.15 OIG student intern positions are high risk and subject to a full background investigation.

As of May 2005, eight interns were working in HRB -- three student interns, four summer
(student) interns, and one student trainee. Some of the student interns working in HRB had and
continue to have access to personal employee information contained within the FDIC’s human
resources and payroll systems, computer files included in shared drives, and other sensitive
hardcopy documents. For example, student interns in HR are responsible for boxing and
shipping OPFs and merit promotion files, both containing personal employee information,
including SSNs. One of the interns working in HR has open access to SSN information within
CHRIS and NFC and responsibilities that include shredding HR documents and copying and
delivering documents containing personal employee information.

Without limitations on student interns’ access to personal employee information, the FDIC is at a
greater risk that such information could be inappropriately accessed and misused. However, we
acknowledge that some interns’ duties and responsibilities might require handling personal
employee information. In those cases, the FDIC needs to (1) ensure that the student interns
participate in the Corporation’s privacy awareness training courses or (2) expand the scope of
the intern’s background check. In addition, the FDIC should include discussions on
safeguarding personal employee information in its student intern orientation seminars.

Mentoring Contractor Is Being Provided SSNs Without a Business Need

The FDIC adopted the Corporate Mentoring Program as a permanent corporate-wide program
in 1999 to support a productive workplace by enhancing employees’ job skills, empowering
employees, and promoting good corporate citizenship. The FDIC Mentoring Program seeks to
accomplish these objectives by helping less experienced employees (mentorees) draw upon the
experience and knowledge of more experienced employees (mentors). The FDIC Mentoring
Program is open to all employees16 with participation typically limited to a maximum of 200
employees (100 mentorees and 100 mentors) for participation in a 1-year program. DOA
Career Management Services administers the program.

During the annual open enrollment period for the FDIC Mentoring Program, applicants use an
on-line application process to provide personal information such as name and SSN. The
application includes the following Privacy Act statement regarding the collection of information:

         The information on this form may be disclosed in accordance with the other
         “routine uses of records” listed in the FDIC’s Unofficial Personnel System,
         30-64-0015. Your Social Security number (SSN) is requested to ensure record
         accuracy. Completion of this form is voluntary, but failure to provide the
         requested information, including your SSN, may result in your registration form
         not being processed.


15
   Low-risk positions are subject to a National Agency Check (which includes fingerprinting), a credit check, and
inquiries to prior employers, educational institutions, and law enforcement agencies.
16
   Employees must have at least 1 year’s experience with FDIC to participate in the Mentoring Program.




                                                          21
DIT developed and maintains DOA’s database storing the information collected for the FDIC
Mentoring Program, including applicants’ SSNs. The database is released to an FDIC
contractor that uses the information to develop biographical profiles on the applicants. This
contractor has been providing the profiling services to the FDIC since 1999. The contract does
not include a Privacy Act reference, confidentiality clause, or a confidentiality agreement.

According to DOA officials, in early October 2005, DOA discontinued the practice of including
SSNs in the information released to the contractor. Specifically, DIT eliminated the SSNs from
the mentoring database transmitted to the contractor and replaced the SSNs with different
identification numbers.

DOA Career Management Services officials told us that they will consider using a different
identifier other than the SSN for the 2007 mentoring program. Until DOA discontinues requiring
the SSN in the mentoring program application, DOA risks maintaining employees’ SSNs without
a clear business need.

Recommendations

We recommend the Director, DOA, in conjunction with the General Counsel, Legal Division:

4. Prepare a standard Privacy Act contract clause for use in all contracts involving Privacy Act
   information.

5. Modify existing contracts discussed in this report to include specific references to the
   Privacy Act.

6. Require contracts that involve the electronic transmission of Privacy Act information to
   include encryption requirements.

We recommend that the Director, DOA:

7. Require HRB and DOF contractors listed in this report to sign contractor confidentiality
   agreements.

8. Remind contract specialists that they should not amend contracts or waive contractor
   confidentiality statement requirements without Legal Division concurrence.

9. Ensure that regional offices employ controls over official personnel files and any other
   personal employee information that are equivalent to those implemented by DOA’s
   headquarters Human Resources Branch.

10. Evaluate and determine whether DOA should adopt DSC’s practice of not maintaining
    Unofficial Personnel Files or “working files” and consider establishing a corporate-wide
    policy consistent with that practice.

11. Develop corporate guidelines detailing appropriate job tasks that interns should perform,
    and strengthen controls over interns’ access to sensitive information.

12. Determine whether an employee identification number or other identifier could be used in
    place of employees’ SSNs in the Career Management Services’ mentoring program
    database.



                                                22
     FDIC PRACTICES AND INITIATIVES FOR SAFEGUARDING
     ELECTRONIC PERSONAL INFORMATION

The FDIC is actively reviewing information within its corporate systems and applications to
determine which applications contain SSNs and employee identification numbers (EIN),
collectively referred to as tax identification numbers (TIN), and is developing plans to remediate
specific applications. The FDIC has also incorporated privacy questions into its processes for
assessing the data sensitivity of applications and certifying and authorizing applications for
operational use. The FDIC completed a Privacy Impact Assessment17 (PIA) of 27 applications
that the Corporation has identified as containing TINs and posted the PIAs to the FDIC’s
external Web site. We confirmed that CHRIS and NFE generally use a system-generated EIN,
as opposed to an SSN, except in very few cases. We also verified that the FDIC limits
employee access to SSN data within these systems.

However, we noted that the FDIC’s PIA template does not address what opportunities
individuals had to decline to provide information or consent to particular uses of information, an
OMB requirement for agency PIAs. Further, opportunities may exist to impose document-level
controls over electronic files containing Privacy Act information. Finally, contractors and
vendors who maintain Privacy Act information for the FDIC, but are not connected to the FDIC’s
network, are not subject to any form of information security review or encryption requirement.
These additional enhancements will help to ensure that the FDIC implements sufficient technical
controls over personal employee information.

The FDIC Has Taken Proactive Steps to Identify Systems Containing SSNs

The OMB 2005 FISMA reporting instructions include a question related to the number of
information systems containing federally owned information in an identifiable form and whether
the agency has conducted a PIA and published SORNs. The FDIC is in the process of
conducting a two-phased effort to identify SSNs in FDIC applications and in electronic files and
hardcopy form.

Corporate Data Sharing Initiative: The FDIC began the Corporate Data Sharing initiative in
1997 to improve the sharing of corporate data assets within the FDIC and between the FDIC
and financial institutions, the public, and other government agencies. The FDIC Corporate Data
Sharing Steering Committee (CDSSC) is composed of representatives from all divisions and
offices and sets the strategic direction for corporate data and information planning,
management, and use. The FDIC has organized its corporate data into groups of related data,
referred to as families, such as open institution data, procurement data, and FDIC personnel
data. The CDSSC established Collaborative Working Groups (CWG) to manage each data
family, develop descriptions of the data within each family, and establish business rules for the
confidentiality, integrity, and availability of data within each family.18 We reviewed the CDSSC
business rules for the Corporate Personnel Data family, defined as information about FDIC
employees, former employees, and candidate employees and found that CDSSC established
business rules for the confidentiality, integrity, and availability of corporate personnel data.

17
   A PIA is an analysis of how information is handled (i) to ensure handling conforms to applicable legal, regulatory,
and policy requirements regarding privacy; (ii) to determine the risks and effects of collecting, maintaining, and
disseminating information in identifiable form in an electronic information system; and (iii) to examine and evaluate
protections and alternative processes for handling information to mitigate potential privacy risks.
18
   Circular 1301.3, Data Stewardship Program, dated September 4, 2001.




                                                           23
Phase I of the SSN Project: In 2005, the CDSSC tasked the CWGs with assessing the FDIC’s
use of TINs. In Phase I of the effort, a small team searched all FDIC databases in the
Enterprise Data Architecture for data elements that could indicate tax identifier data. The team
then associated each data element to dependent application(s) and developed an inventory of
applications containing TINs. In coordination with the DIT project manager, the team identified
62 of the FDIC’s 313 applications as candidates that could reference TINs. After further
analysis, the team ultimately recommended 26 applications for remediation to secure TINs
within FDIC application systems and corporate databases.19

DIT’s Data Management Section submitted a draft report entitled, Corporate Use of Taxpayer
Identification Number Remediation Analysis, dated June 30, 2005, to the CIO. The draft report
identified the 25 applications (later increased to 26), potential remediation methods, and cost
estimates for remediating the applications. According to DIT representatives, the CIO
considered the analysis to be a good first effort but concluded that the scope of the effort
needed to be expanded. For example, the Phase I effort did not include NFE or legacy systems
integrated with NFE. Further, remediation costs included the initial cost of reprogramming
applications but may not have included the associated costs of testing the remediated
applications or changes to business processes resulting from remediation.

Application Remediation Effort: DIT’s Delivery Management Branch (DMB) group will be
responsible for remediating specific applications. A DMB representative indicated that DIT
would begin the remediation effort in early September 2005 after DIT had completed its
reorganization. The representative stated that DMB had not established a time table or
milestones for project completion and had not made cost estimates for the remediation effort.
The representative also stated that DMB will likely prioritize the list of 26 applications to
remediate those applications that present the most risk for the Corporation.

Phase II of the SSN Project: In August 2005, the CIO issued a memorandum to division and
office directors, announcing the second phase of the SSN effort to collect information about
electronic and hardcopy sources within the Corporation. This effort covered those systems that
contain sensitive information in, for example, MicroSoft Word documents and Excel
spreadsheets developed by individual employees or organizational units. The EAB gathered
the information through an Internet survey. The CIO requested survey completion by
September 23, 2005. According to DIT’s October 2005 Monthly Status Report to the Chief
Operating Officer, all divisions and offices reported their inventory items. The results will be
analyzed and provided to the CPO.

The FDIC Completed Privacy Impact Assessments for Systems Identified as Containing
SSNs

The E-Government Act of 2002 provides protection for personal information in government
information systems or information collections by requiring that agencies conduct PIAs. The
FDIC developed a PIA guide and template in July 2005. According to the Privacy Program
Status Report, dated October 31, 2005, DIT had completed PIAs for 27 applications that it
identified as containing SSNs. We reviewed the PIA template and the completed PIAs for five
applications containing personal employee information. We compared the PIA to guidance
contained in the E-Government Act and in OMB Memorandum M-03-22, OMB Guidance for
Implementing the Privacy Provisions of the E-Government Act of 2002, dated

19
  Remediation could include eliminating data fields within an application that contain SSNs or masking data fields
containing SSNs so that system users are unable to view the SSN.




                                                         24
September 26, 2003. With the exception of one item, we concluded that the PIAs addressed
each of the OMB-required elements as shown in Table 6.

Table 6: OIG Review of Selected PIAs
Did the PIA …                   CHRIS         NFE            Training      Electronic    Multi-Tier
                                                             Server        Travel        Applications
                                                                           Voucher       Architecture
                                                                           Processing    Project
                                                                           System
                                                                           (ETVPS)
Q1. Analyze and describe        Yes           Yes            Yes           Yes           Yes
what information was to be
collected?
Q2. Analyze and describe        Yes           Yes            Yes           Yes           Yes
why the information was
being collected?
Q3. Analyze and describe        Yes           Yes            Yes           Yes           Yes
the intended use of the
information?
Q4. Analyze and describe        Yes           Yes            Yes           Yes           Yes
with whom the collected
information was to be
shared?
Q5. Analyze and describe        Not in PIA,   Not in PIA,    Not in PIA,   Not in PIA,   Not in PIA, but
what opportunities              but CHRIS     but NFE        Training      but ETVPS     most FDIC
individuals had to decline to   Time &        login          Server does   login         employees do
provide information or to       Attendance    includes       not include   includes      not access this
consent to particular uses of   (T&A) login   notice.        notice.       notice.       system.
information and how             includes
individuals could grant         notice.
consent?
Q6. Analyze and describe        Yes           Yes            Yes           Yes           Yes
how the information was to
be secured (administrative
and technological controls)?
Q7. Analyze and describe        Yes           Yes            Yes           No            Yes
whether a system of records
is being created under the
Privacy Act?

Q8. Identify what choices     Yes     Yes            Yes                   Yes           Yes
the agency made regarding
an IT system or collection of
information as a result of
performing the PIA?
Source: OMB Memorandum M-03-22 and OIG analysis of selected PIAs.

As shown, the PIAs that we reviewed did not address question 5. However, systems for three
of the five PIAs that we reviewed contained the required notice at the system log-in screen. A
DIT representative agreed to update the PIA template and the completed PIAs to address
question 5.

We observed that DIT completed PIAs for all of its systems identified as containing TINs. OMB
M-03-22 indicates that a PIA is not required where information relates to internal government
operations, such as Web sites, IT systems, or collections of information that do not collect or
maintain information in identifiable form about members of the general public. However, OMB
encourages agencies to conduct PIAs on systems that collect information in identifiable form




                                                        25
about government personnel. A number of the applications for which the FDIC has conducted
PIAs are internal systems that contain information about FDIC employees, but do not contain
information about the general public.

FDIC Human Resources and Accounting Systems Limit the Use of SSNs

CHRIS, an integrated system that supports all existing FDIC HR functions, is based on the
Federalized Commercial off-the-Shelf (COTS) HR software solution provided by PeopleSoft.
CHRIS was implemented corporate-wide through four major releases spanning from
February 2001 to May 2005, with the latest release, CHRIS T&A, being focused on time and
attendance functionality.

CHRIS T&A System: The predecessor system to CHRIS T&A, the Corporate Time and
Attendance Worksheet (CTAW), used employee names and SSNs to ensure record accuracy
and for identification purposes. In a previous evaluation report issued in October 2000,20 we
reported that FDIC officials consistently identified CTAW as the area in which employee data
was vulnerable, in part, because officials had observed in many instances that CTAW forms,
containing SSNs, were left unattended in either in-boxes or on the desks of employees,
supervisors, or timekeepers. As a result, officials believed that these forms could be seen by
others who should not have access to this information. At the time of the prior evaluation, FDIC
officials were in the process of replacing CTAW with CHRIS T&A and had planned to use a
different EIN when CHRIS was implemented.

CHRIS T&A replaced CTAW as the FDIC’s T&A system in May 2005. CHRIS T&A is a Web-
based, employee self-service system that automates the leave and premium pay request
process, provides an interface with NFE for accounting and cost management data, and is
based on a COTS T&A system designed specifically for agencies using NFC payroll processing.
The FDIC no longer uses SSNs for its T&A processing and has established unique employee
identifiers – EINs– to replace SSNs. We reviewed CHRIS and NFC staffing tables and verified
that the tables did not include SSNs.

CHRIS HR System: CHRIS HR is a human resources software solution developed in
PeopleSoft and provides DOA with an integrated system to support existing HR functions.
CHRIS HR provides employee information to NFE. Although CHRIS HR has SSNs, the FDIC
has limited the number of individuals having access to the SSN field in CHRIS HR. We
reviewed the CHRIS HR Security Administrator User’s Guide and noted that it specified a
number of security requirements for gaining access to the system.

In 2004, DOA conducted a security review to determine DOA employee access to sensitive
computer systems and data, including CHRIS, and to ensure that the position risk level
designations for employees having access to this information were proper in relation to the
access. As a result of this security review, 208 DOA employees with CHRIS access had their
position designations upgraded from low risk to moderate risk. Moderate-risk positions undergo
a more extensive background investigation than low-risk positions.

NFE System: In May 2005, the FDIC implemented the NFE, an enterprise-wide, integrated
software solution to support the financial needs of the FDIC. NFE modernized the FDIC’s
financial systems by implementing PeopleSoft functional modules to support existing business

20
     Evaluation Report No. 00-006, FDIC’s Information Handling Practices for Sensitive Employee Data, dated
     October 11, 2000.




                                                          26
processes, absorbing legacy systems, renovating legacy systems not absorbed by NFE, and
coordinating with CHRIS T&A developmental efforts that interoperate with NFE. NFE accesses
SSNs only through the Payroll Module, which is a part of CHRIS HR, and the SSN is captured
when the record is established for a new employee. The EIN is used at all other times. The
NFE initiative established the following processes for electronically safeguarding personal
employee information:

       •   NFE interfaces with the ETVPS, Relocation Management System, and Separation
           Incentive Payment System and automatically converts the SSN to the EIN when printing
           transaction reports or processing payroll. Two separate user identifications are required
           to view SSNs in CHRIS HR and NFE. Requests for system access are also subject to
           supervisory approval. DOF limits access to SSN data and reviews the NFE access
           levels every 6 months.

       •   All supplemental payments such as life cycle, petty cash, telephone reimbursements,
           and examiner/executive payments are coded by EIN and paid through the Payroll
           Module in lieu of the Accounts Payable Module. With the exception of the W-2s, all
           supplemental payments are printed out with the EIN instead of the SSN.

       •   The Payroll Bridge System interfaces with NFE and translates payroll data to create
           journal entries for the general ledger. The Payroll Bridge System creates files with SSNs
           and sends information to the Data Warehouse. However, to access data, DOF requires
           an employee to have two access roles and identification codes.

       •   ETVPS contains SSNs in electronic form. Truncated SSNs can be seen by a user, but
           the SSN cannot be printed from ETVPS. DOF has limited the access to the SSNs to
           nine employees in the Travel Audit Group and Security. DOF performs a semiannual
           reliability review of the data and a review of the user access levels to the ETVPS data.
           An employee is required to have an FDIC identification badge to access ETVPS, which
           contains the employee’s Entrust21 security profile.

In addition to the security efforts for NFE, DOF also initiated a project in July 2005 related to
access control and maintenance of DOF’s shared drive. This project consisted of a review of
folders and associated sub-folders in the shared drive by the cognizant DOF manager to ensure
that access to the folders and sub-folders is appropriate and that the need for the folder and its
sub-folders still exists. DOF anticipated completing this project by the end of 2005 and
established a goal to perform this type of review annually.

AREAS FOR IMPROVEMENT – ELECTRONIC SAFEGUARDS
Opportunities May Exist to Strengthen Document-Level Controls Over Electronic
Documents Containing Privacy Act or Sensitive Information

Typically, organizations secure digital information by using perimeter-based security methods,
such as firewalls, that limit access to a network, and access control lists, that restrict user
access to specific data. Organizations may also use encryption and authentication technologies
and products to help secure e-mail transmissions. Although these methods help to control
access to sensitive data, they do not prevent recipients of such data from copying, printing, or

21
     Entrust is the software that the FDIC uses to encrypt and digitally sign e-mail messages and files.




                                                            27
further distributing sensitive information. For example, within the FDIC’s network, a recipient of
an encrypted file may forward the file, unencrypted, to another recipient.

Rights Management Services (RMS) is a relatively new technology from Microsoft for use with
Microsoft Office 2003 and Windows Server 2003, which augments an organization’s information
security by providing protection of information through persistent usage policies that remain with
the information, regardless of where it is sent. For example, persistent use technologies may:

     • Prevent a recipient from copying, printing, saving, editing, or forwarding information to
       another recipient.
     • Place time limits after which a document cannot be opened.
     • Specify different rights for individual users (e.g., account managers are granted rights to
       alter or print data, while other users are limited to “read only” access).

The FDIC has instituted a number of effective controls at the system and application level.
However, controls could be strengthened at the document level. RMS technology could provide
a solution to enhance document-specific controls. During an earlier OIG audit of the FDIC’s
e-mail security,22 we found that the FDIC had limited assurance that employees and contractors
encrypt sensitive e-mail communications when required. We determined that technical
shortcomings with the FDIC’s implementation of encryption were a contributing factor for
employees not encrypting sensitive e-mail communications. As a result, we recommended that
DIT evaluate alternative solutions to augment its implementation of encryption for securing
sensitive e-mail communications, including giving consideration to implementing RMS
technology. In its response, DIT indicated that it was evaluating alternative solutions, including
RMS, and would have the evaluation completed by November 30, 2005.

A key factor that DIT should consider in its evaluation is the Corporation’s migration to Microsoft
Office 2003 subsequent to our e-mail security audit. With this migration, the Corporation is in a
better position to implement RMS. We intend to follow up on this issue by reviewing DIT’s
evaluation that was prompted by our prior recommendation.

The FDIC Needs to Require Some Form of Third-Party Security Review for Contractors
and Vendors That Maintain Personal Employee Information in Electronic Form

The OMB 2005 FISMA reporting instructions23 include guidance for federal agencies on the
applicability of FISMA to government contractors. The OMB guidance references Section
3544(b) of FISMA,24 which requires each agency to provide security for the information and
information systems that support the operations and assets of the agency, including those
provided or managed by another agency, contractor, or other source. The OMB guidance
indicates that agencies must develop policies for information security oversight of contractors
and other users with privileged access to federal data.

OMB also notes that FISMA requires agencies to provide security protections commensurate
with the risk and magnitude of harm resulting from unauthorized access, use, disclosure,
disruption, modification, or destruction of information collected or maintained by or on behalf of

22
   Report No. 05-016, Security Controls Over the FDIC’s Electronic Mail (E-Mail) Infrastructure, dated March 2005.
23
   OMB Memorandum M-05-15, FY 2005 Reporting Instructions for the Federal Information Security Management Act
and Agency Privacy Management, dated June 13, 2005.
24
   The reference to Section 3455(b) is a reference to 44 United States Code § 3455, which FISMA added to the
Code.




                                                       28
the agency and for information systems used or operated by an agency or other organization on
behalf of an agency. OMB further notes that agencies are fully responsible and accountable for
ensuring that all FISMA and related policy requirements are implemented and reviewed and are
included in the terms of a contract. OMB specifies that agencies must ensure identical, not
“equivalent,” security procedures. For example, annual reviews, risk assessments, security
plans, control testing, contingency planning, and certification and accreditation must, at a
minimum, explicitly meet guidance from the National Institute of Standards and Technology.
Agencies are also responsible for ensuring that contractor personnel receive appropriate
training.

FDIC Contractor Security Guidance: FDIC Circular 1360.17, Information Technology Security
Guidance for FDIC Procurements/Third Party Products, dated June 30, 2003, establishes a
framework for incorporating security into all phases of the IT acquisition process and for
establishing IT security requirements for third-party providers who wish to provide automated
data processing contract services or products to the FDIC. The scope of the circular applies to
contractors and others who participate in IT contracting with the FDIC and to non-FDIC products
and individuals that service, handle, manage, or interface with FDIC data or systems.

Among other things, the circular requires that connections to all FDIC platforms, operating
environments, and applications be protected to prevent unauthorized access and assure
accountability and integrity. Additionally, the circular requires security controls for the protection
of sensitive data to be documented and provided to the contract oversight manager. The
circular defines an automated information system as an application of information technology
that is used to process, store, or transmit information.

DIT Contractor Security Reviews: Circular 1360.17 requires DIT Information Security Staff
(ISS) to conduct periodic reviews of third-party servicers and COTS products for compliance
with FDIC security policies and standards before, during, and following the period of contract
performance or product service to the FDIC.

ISS has not performed security reviews of any of the HRB or DOF vendors discussed in Table 4
of this report. ISS indicated that Circular 1360.17 is intended for contractors who have direct
connections to the FDIC’s computer network. None of the contractors shown in Table 4 has
direct connections to FDIC’s computer network. ISS also questioned the feasibility of requiring
contractors to maintain identical security controls or conducting security reviews at contractors
that service multiple federal agencies. ISS noted that contractors with multiple federal clients
could be subject to varying degrees of security controls and multiple security reviews by
individual agencies. ISS indicated that the federal CIO Council had discussed the
reasonableness of OMB’s guidance and its repercussions at federal agencies and raised these
concerns with OMB.

We agree that requiring identical security controls and conducting security reviews of
contractors that do not have direct connections to the FDIC’s network could be problematic,
especially for contractors that work with multiple federal agencies. However, these contractors
do maintain FDIC personally identifiable information, and the FDIC should be taking reasonable
steps to ensure that contractors have adequate security controls in place commensurate with
the risks and magnitude of harm resulting from unauthorized access to the information. We
concluded there may be means to obtain assurances of adequate security for contractor-
maintained information other than an ISS-performed security review as discussed below.




                                                 29
Third-Party Security Reviews: The increased use of technology and third-party service
providers has resulted in complex systems and new business processes that increase
productivity and efficiency but also increase the risks related to information security and privacy.
Several entities have developed third-party programs to provide independent assurance about
the security, availability, processing integrity, on-line privacy, and confidentiality of a contractor
or service provider’s Web site or computer system. Examples of third-party programs include
the Council of Better Business Bureaus’ award seals for on-line privacy and on-line reliability,
the American Institute of Certified Public Accountants (AICPA) and the Canadian Institute of
Chartered Accountants (CICA) Trust Services engagements, and the TruSecure Enterprise
Certification.

AICPA/CICA Trust Services are professional assurance and advisory services based on core
principles and criteria, presented in Table 7, that are designed to address the risks and
opportunities of information technology. SysTrust and WebTrust are two specific services
developed by the AICPA/CICA that are based on the Trust Services Principles and Criteria.
SysTrust engagements provide assurance on the reliability of a computer system, while
WebTrust engagements provide assurance on an organization’s E-commerce system.

Table 7: AICPA/CICA Trust Services Principles and Criteria

     Security             The system is protected against unauthorized access, both physical and
                          logical.
     Availability         The system is available for operation and use as committed or agreed to.
     Processing           System processing is complete, accurate, timely, and authorized.
     Integrity
     Online Privacy
                  Personal information obtained as a result of E-commerce is collected, used,
                  disclosed, and retained as committed or agreed to.
  Confidentiality Information designated as confidential is protected as committed or agreed to.
Source: AICPA Web site.

Entities meeting Trust Services criteria are eligible to display the SysTrust or WebTrust seal on
their system or Web site to indicate independent verification that an entity’s system meets the
Trust Services criteria. A Trust Services seal reveals the date the seal was granted and the
date it expires, the site's business practices and policies, Trust Services Principles and Criteria
used to examine the site, the report of the independent accountant, and links to other sites with
active WebTrust seals.

The TruSecure25 Enterprise Certification is another form of third-party review and is an
integrated, continuous security program that addresses the most significant sources of risk
across all the dimensions of an organization, providing security assurance in six major areas of
risk: electronic threats and vulnerabilities, malicious code, privacy, physical security, and
human factors. In the TruSecure Enterprise service, TruSecure analysts conduct a number of
analyses of an organization’s critical assets and locations. Additionally, the analysts visit a site
to assess current risk levels and then work with network administrators over a period of time to
create a customized program that meets the company’s business and information security
needs. TruSecure analysts repeat the electronic and on-site visits during the course of the
program to ensure recommendations and mitigations have been applied. A Web-based console
that ties into a proprietary database at TruSecure’s Security Operations Center keeps track of
compliance and creates a “Guidance Map” for security administrators to follow in the progress

25
     TruSecure is a security intelligence and service provider.




                                                             30
toward optimal risk reduction and ultimately, TruSecure Certification. We determined that
Cendant, an FDIC contractor that services the FDIC Relocation Program through its system,
Client Connect, completed an organizational risk assessment and received the TruSecure
Enterprise Certification.

Moreover, pending legislation, the Personal Data Privacy and Security Act of 2005 (S.1789),
would amend FISMA, Section 3544(b), to require agencies to develop and implement
procedures for evaluating and auditing the information security practices of contractors or third
party business entities supporting the information systems or operations of the agency involving
personally identifiable information and ensuring remedial action to address any significant
deficiencies.

Some form of third-party security review would provide the FDIC independent assurance that
contractor Web sites and systems contain adequate controls to protect the security,
confidentiality, and privacy of FDIC personal employee information. Ideally, the Corporation
could require, during the contract solicitation process, that qualified offerors obtain a third-party
security review and maintain that designation throughout the term of the contract. Requiring a
contractor to obtain a single security review that multiple federal agencies or other customers
could rely upon would be a more reasonable approach than requiring multiple security reviews
of a contractor by individual agencies. Requiring a third-party review would also place
responsibility on the contractor for demonstrating that it has adequate Web site and system
security.

Finally, Circular 1360.17, Information Technology Security Guidance for FDIC Procurements/
Third Party Products, does not address information security expectations and requirements for
contractors that maintain Privacy Act or sensitive information (e.g., open bank or procurement
sensitive information) but that are not directly connected to the FDIC’s network. The circular
also lacks encryption requirements for electronic transmissions to these contractors.

Recommendations

We recommend that the CPO:

13. Revise the PIA template and completed PIAs to include a question pertaining to the
    opportunities system users have to decline to provide information or to consent to particular
    uses of information and how system users may grant consent.

14. Research, including discussing with CIO counterparts from other agencies and the OMB,
    the feasibility, benefits, and costs of requiring that contractors and vendors who are not
    connected to the FDIC’s network, but who maintain Privacy Act information on behalf of the
    FDIC, receive some form of third-party information technology security review.

15. Revise FDIC Circular 1360.17, Information Technology Security Guidance for FDIC
    Procurements/Third Party Products, to include security expectations, including encryption
    requirements, for contractors and vendors that are not connected to the FDIC’s network but
    maintain Privacy Act information on behalf of the FDIC.




                                                  31
 MATTERS FOR FURTHER CONSIDERATION

Additional Initiatives Could Be Considered for Increasing Controls for
Safeguarding Personal Employee Information

We identified several other controls that the FDIC could consider to further heighten awareness
among corporate employees for safeguarding personal
employee information entrusted to them.
                                                                  Government Security – The Risks and
                                                                     Costs of Inadequate Security
File Clean-up Days: The FDIC’s policy is that all
sensitive records, regardless of where they are              Did you know...
physically stored, must be destroyed by shredding,
                                                                 •   Most information that is shared
pulping, maceration (in the case of computer discs and               unwillingly is done so by leaving
CDs), or similar manner that prevents access to the                  documents and computers
                                                                     unattended, even if only for a few
information captured in the disposable files. In                     minutes.
conforming to corporate policy, DOA’s Corporate
Services Records Management Unit installed secure                •   Most trespassing incidents occur
                                                                     because offices do not keep their
shredding bins throughout headquarters offices to be                 offices secured, neglect to regularly
used on an ongoing basis for disposal of sensitive and               change access codes, or choose
                                                                     unrelated access codes each month.
confidential material. The FDIC’s off-site records
storage vendor is responsible for periodically replacing         •   Most breaches of security occur during
full bins with empty bins and destroying the sensitive               business hours while other people are
                                                                     present.
documents off-site. In addition, through the FDIC’s
national contract with the off-site records storage          Source: Federal Lock & Safe, Inc. (FedLock).
vendor, shredding bins are being used throughout the
Dallas and Kansas City offices, including certain smaller area offices.

In conjunction with these efforts, we suggested to DOA that it consider sponsoring a file clean-
up day in preparation for the relocation of FDIC employees from various headquarters offices in
downtown Washington, D.C., locations to the FDIC’s Virginia Square complex scheduled to take
place in early 2006. We envision a file clean-up day to be one wherein employees spend the
day cleaning files, discarding records no longer needed, and preparing files and documents for
disposal by shredding, pulping, or maceration as specified in the FDIC’s policy. Future clean-up
days could be scheduled periodically, as needed. DOA officials appeared receptive to this
suggestion, especially in light of the pockets of unofficial personnel files -- such as employee
folders maintained by supervisors -- that exist in the Corporation.

Clean Desk Policy and DOA Walk-Through Monitoring: In Evaluation Report No. 00-006,
FDIC’s Information Handling Practices for Sensitive Employee Data, dated October 11, 2000,
we reported that the FDIC had procedures and practices in place that were designed to prevent
unauthorized disclosure or access to records or systems to individuals without a business need
to know. Included in the general practices was the FDIC’s implementation of clean desk
policies in some offices to help ensure that sensitive information was not inadvertently left
unattended. HR officials told us that the clean desk policy was no longer being practiced in their
respective groups, but said that other controls, such as limited access to work areas wherein
personal employee information is being maintained, were still in place. We suggest that the
FDIC encourage its corporate managers that routinely handle personal employee information to
adopt the clean desk policy during non-working hours. We also suggest that DOA periodically
perform walk-through inspections of its offices and work areas wherein personal employee



                                                   32
information is maintained in order to continually monitor the physical safeguards for protecting
the sensitive data. For example, DOA representatives could make spot checks of copiers and
telefax machines to determine whether documents containing sensitive information are being
left unattended and observe the types of documents being discarded in trash cans to ensure
that sensitive information is not included.

Sending Periodic Reminders to Regional Staff: In November 2004, the HR Associate
Director, DOA, sent an electronic message to HR staff in headquarters regarding the protection
of sensitive personnel information and the need to encrypt messages that contain sensitive
information being sent to FDIC vendors. The message referenced and provided electronic links
to the following:

   •   Circular 1310.5, which requires that individual division/office managers establish specific
       requirements regarding encrypting and digitally-signing electronic messages. The
       circular also states that electronic messages and attachments containing personnel
       related actions should be considered for encryption.
   •   FDIC guidance and instructions for digital signature and encryption.
   •   Circular 1031.1, which provides guidance to employees about the rights provided and
       the responsibilities imposed by the Privacy Act of 1974.
   •   OPM’s The Guide to Personnel Recordkeeping, addresses, in part, security issues
       regarding the use of personnel records containing sensitive or private information.
   •   A list of the types of communications that HR staff have with potential employees,
       employees on board, OPM, and FDIC organizations, including recommendations for
       encryption when the information is sent through electronic messages.

We suggest that DOA periodically update and reissue the information from the November 2004
electronic message to HR staff in headquarters and regional offices to maintain awareness.

Informing Employees about the Availability of Security Tips: DIT’s Web page and DOA’s
Security Management Section (SMS) Web page include links to SECURITYsense, a publication
of the National Security Institute, Inc., an organization established in 1985, which provides a
variety of professional information and security awareness services to the federal government
and private industry. SECURITYsense is a monthly newsletter on information security that
includes the latest exploits, vulnerabilities, and tips on using personal computers, personal data,
and personal information. DIT subscribes to this newsletter. The following are examples of
some of the topics discussed in the newsletters:

   •   Identity Theft: Know the Warnings (October 2005).
   •   5 for the Road: Protect Your Laptop (and the Data Inside It) (July 2005).
   •   10 Data Security Tips for All Employees (April 2005).
   •   10 Ways to Work More Securely (February 2005).
   •   Q&A: How Vulnerable is Your Social Security Number? (December 2004).
   •   Five ID Theft Tips: More Firms Guarding Employee Data (October 2004).
   •   ID Theft and the Workplace: 5 Things You Need to Know (June 2004).

The National Security Institute, Inc., suggests seven ways for subscribers to deliver
SECURITYsense to employees:

    1. Post each new issue on the company Web site.
    2. Electronically mail the monthly contents page to all employees.




                                                33
    3.   Publish articles in the company newsletter.
    4.   Make an attractive poster out of any of these quick-read stories.
    5.   Create handouts that will actually get read.
    6.   Reprint content for use in memoranda or bulletins.
    7.   Create a pop-up window that features an article or tip.

We suggest that the FDIC publicize to its employees and        Government Security – The Risks and
                                                                  Costs of Inadequate Security
contractors the availability of SECURITYsense on its
Web site and encourage employees and contractors to           Here are some security tips…
read the newsletters.
                                                                  •   Never leave classified or critical
                                                                      documents unsecured.
SMS Physical Security Inspections and Proprietary
and Cipher Locks: In July 2005, SMS conducted a                   •   Never leave your office or desk
                                                                      unsecured.
physical security assessment of DOA’s Benefits Center
and recommended that the Center discontinue using                 •   Always change combinations on safe
SSNs in its correspondence and consider adopting the                  locks every year, without fail (it’s the
                                                                      law for sensitive document storage).
clean desk policy for its operations. We encourage the
FDIC to periodically remind its employees about the               •   Always change combinations on safe
SMS’ physical security vulnerability assessments and                  locks any time the person who was
                                                                      the primary user of the safe leaves the
encourage those organizations that routinely handle                   organization.
personal employee information to request an SMS
assessment.                                                   Source: Federal Lock & Safe, Inc. (FedLock)


SMS officials also suggested that FDIC organizations handling personal employee information
consider adopting the following best practices with respect to locking devices:

   •     Periodically change the codes in mechanical pushbutton (cipher/keypad) locks.
         Although not mandated to do so, SMS changes the codes in its keypad locks when an
         SMS employee leaves or every 6 months.
   •     Replace standard locks on file cabinets and desks with proprietary locks that have keys
         that cannot be reproduced. A key for a standard lock can be reproduced.



 CORPORATION COMMENTS AND OIG EVALUATION


The Corporation provided a written response dated December 16, 2005 to a draft of this report.
The Corporation’s response is presented in Appendix VII (without attachments). The FDIC
concurred with the intent of each recommendation and agreed to take corrective action on 12 of
the 15 recommendations. For the remaining three recommendations (6, 10, and 11), the FDIC
indicated, and we concur, that actions taken and/or controls already in place were sufficient and
that no further action was warranted. These three recommendations are discussed in more
detail below. The FDIC’s written response also included supporting documentation sufficient to
close three recommendations (4, 8, and 12). The remaining recommendations (1, 2, 3, 5, 7, 9,
13, 14, and 15) are resolved but will remain open until we have determined that agreed-to-
corrective actions have been completed and are effective. Appendix VIII presents a summary of
the Corporation’s response and the status of each recommendation.

Recommendation 6 advised DOA, in conjunction with the Legal Division, to require contracts
involving the electronic transmission of Privacy Act information to include encryption



                                                34
requirements. DOA concurred with the intent of the recommendation but noted that the APM
places responsibility with the program office to identify appropriate security requirements
through the contract SOW. Thus, DOA believes the program office would be in the best position
to identify whether encryption is necessary. DOA also noted that the APM requires contracts
subject to Circular 1360.17, Information Technology Security Guidance for FDIC Procurements/
Third Party Products, to include IT security and monitoring requirements in the SOW. In
response to recommendation 15, the CPO and DIT agreed to revise Circular 1360.17 to
enhance guidance provided to contractors that are not connected to the FDIC’s network but that
maintain Privacy Act information on behalf of the FDIC. We consider DOA’s response, along
with DIT’s plans to revise Circular 1360.17, sufficient to close the recommendation.

Recommendation 10 advised DOA to evaluate and determine whether DOA should adopt
DSC’s practice of not maintaining Unofficial Personnel Files or “working files” and consider
establishing a corporate-wide policy consistent with that practice. DOA responded that it had
evaluated its practices and decided to continue to maintain these files. DOA indicated that
UPFs provide a means for employees and supervisors to readily access information on a
regular basis and likely reduce the volume of requests for access to OPFs and, thus, reduce the
possibility of compromising OPFs. DOA noted that it had complied with the notice requirements
of the Privacy Act and that UPFs were adequately secured. DOA also indicated that it had
considered the need for a corporate-wide policy, and determined that one was not needed at
this time. While we continue to question the need for UPFs, DOA made a good faith effort to
evaluate its practices and the need for a corporate-wide policy, and provided a sufficient basis
for not taking corrective action. Therefore, we consider DOA’s actions sufficient to close the
recommendation.

Recommendation 11 advised DOA to develop corporate guidelines detailing appropriate job
tasks that interns should perform and strengthen controls over interns’ access to sensitive
information. DOA concurred with the intent of the recommendation but responded that proper
controls are in place over student and intern access to sensitive information. DOA noted that
(1) all students and interns employed in HRB are required to complete FDIC’s privacy
awareness training, (2) supervisors are responsible for discussing the safeguarding of personal
employee information with their students and interns and monitoring their use of encryption
when sending personal employee information via e-mail, and (3) students and interns hired as
year-round employees, as well as summer interns who return to work with the FDIC, undergo
the same background investigations as other HRB employees. DOA also pointed out that the
nature of tasks assigned to interns and students, such as opening mail, make it impossible to
employ students and interns in HRB without exposing them to personal employee information.
We encourage DOA to continue to seek opportunities to raise awareness and to limit students’
and interns’ access to personal information. However, the controls that DOA described in place
over that access, if effectively implemented, appear to provide reasonable safeguards.
Therefore, we consider management’s response sufficient to close the recommendation.




                                              35
                                                                                    APPENDIX I



Objective, Scope, and Methodology
We performed this evaluation at the request of the Director, DOA, who asked that the OIG
evaluate the Corporation’s procedures for handling personal employee information. This DOA
request was in response to a security breach involving unauthorized access to personal
information on a large number of current and former FDIC employees. The objective of our
review was to evaluate the FDIC’s policies, procedures, and practices for safeguarding personal
employee information in hardcopy and electronic forms. This evaluation does not address other
types of confidential or sensitive information such as open bank, depositor, or procurement
sensitive information.

We performed our evaluation from July 2005 through October 2005 in accordance with
generally accepted government auditing standards. We performed field work in DOA, DIT,
DOF, and the Legal Division located in Washington, D.C. In addition, we performed field work,
in the Atlanta and Dallas DOA regional offices to evaluate the safeguards over maintaining and
storing employee OPFs.

To accomplish our objective, we performed the following:

   •   Identified criteria used to establish the definition of personally identifiable information.
   •   Reviewed relevant criteria, including, but not limited to, the Privacy Act of 1974;
       E-Government Act of 2002; Section 522 of the Transportation, Treasury, Independent
       Agencies, and General Government Appropriations Act, 2005; and OMB Circular
       No. A-130, Management of Federal Information Resources, Appendix I, Federal Agency
       Responsibilities for Maintaining Records on Individuals. Appendix II contains an
       overview of applicable laws and regulations.
   •   Reviewed privacy awareness information regarding the Risk Mitigation Project Team’s
       recommendations to the CIO Council for safeguarding sensitive electronic information.
   •   Interviewed Legal Division’s FOIA-Privacy Act Group to gain an understanding of the
       FDIC’s long-standing privacy program and continued coordination efforts since
       appointment of the CPO, continuous efforts to publish and update the FDIC’s SORNs,
       and efforts to perform OMB A-130 reviews of identified SORNs.
   •   Reviewed the FDIC Privacy Act SORNs that contained personal employee information.
   •   Reviewed the draft revised FDIC Privacy Act Circular and the Legal Division
       memorandum regarding roles and responsibilities of the CPO.
   •   Discussed the status of activities and initiatives related to development of a
       comprehensive privacy program for the Corporation.
   •   Reviewed the FDIC’s PIA template and the PIA completed for CHRIS. Confirmed that
       PIAs had been completed on the 27 applications that DIT has identified thus far as
       containing sensitive personal information in order to meet FISMA reporting
       requirements.
   •   Obtained an overview from DOA’s senior management of HR’s policies, procedures, and
       practices for safeguarding personal employee information electronically and in hardcopy.
   •   Discussed HRB practices regarding safeguarding OPFs and other HR processing that
       involves personal employee information.
   •   Observed the operations of the Washington, D.C.; Atlanta; and Dallas OPF file rooms.
   •   Discussed policies, procedures, and practices for safeguarding personal employee
       information obtained through background investigations and other background checks,
       investigations of employee misconduct and performance problems, recruitment and
       career management services, and records management.



                                               36
                                                                                    APPENDIX I



   •   Analyzed DOA’s ASB practices relating to safeguarding personal employee information
       to which FDIC contractors and vendors have access and identified the specific
       contractors with access.
   •   Assessed encryption requirements for transmission of sensitive information from HRB to
       vendors and/or contractors.
   •   Assessed the FDIC’s use of student interns involved in processes containing employee
       personal information and their access to sensitive information as well as the FDIC’s risk
       designation for the intern position.
   •   Reviewed the FDIC APM to identify provisions related to confidentiality agreements and
       the Privacy Act and reviewed selected contract files to determine whether appropriate
       provisions and clauses related to privacy and confidentiality agreements were included.
   •   Assessed DIT’s efforts to identify systems and applications containing personal
       employee information.
   •   Discussed the status of the SSN project and efforts to limit use or mask SSNs in existing
       applications.
   •   Met with OIG contractor, KPMG LLP, to discuss the FDIC’s responses to the FISMA
       Section D questions relating to the privacy program.

Validity and Reliability of Performance Measures

We reviewed the FDIC’s performance measures under the Government Performance and
Results Act, the Corporate Performance Objectives (CPO), and the FDIC’s annual performance
plan (APP). We determined that the 2005 CPOs and APP did not include an initiative relating to
its privacy program.

Reliability of Computer-based Data

We identified and relied on some computer-based data pertaining to the following systems that
DOA, DOF, and DIT identified as containing personal employee information (CHRIS, NFC,
Digital Library’s CEFile, ARMS, and ETVPS). However, we did not test the reliability of
computer-based data extracted from these automated systems because our evaluation
objective did not require determining the reliability of computer-based data obtained from the
systems.

Internal Controls

We gained an understanding of relevant control activities by reviewing (1) FDIC’s policies,
procedures, and practices for safeguarding personal employee information in hardcopy and
electronic form, and (2) assessing FDIC’s initiatives to enhance its privacy program. To gain
this understanding, we interviewed the CPO, Privacy Program Manager, Privacy Act Clearance
Officer, and individuals in DOA, DOF, DIT and the Legal Division involved in protecting and
securing personal employee information. The finding sections of the report contain
recommendations to strengthen certain policies and procedures, practices, and guidance.

Fraud and Illegal Acts

The nature of our evaluation objective did not require that we assess the potential for fraud and
illegal acts. However, throughout the evaluation, we were alert to the potential for fraud and
illegal acts, and no instances came to our attention.




                                               37
                                                                                     APPENDIX II



Overview of Applicable Laws and Regulations Related to Privacy
Law                          Description
Privacy Act of 1974          Provides specific guidance to federal agencies on the control and
                             release of agency records that relate to individuals. The Act
                             establishes safeguards for the protection of records the federal
                             government collects and maintains on individuals.

E-Government Act of 2002     Establishes a broad framework of measures requiring use of Internet-
                             based information technology to enhance citizen access to
                             government information and increase citizen participation; improve
                             government efficiency and reduce government costs; and promote
                             interagency collaboration in providing electronic government services
                             to citizens and the use of internal electronic government processes to
                             improve efficiency and services provided. Section 208 of the Act
                             includes procedures to ensure the privacy of personal information in
                             electronic records, including agency preparation of PIAs relative to
                             agency information systems.

The Federal Information      Provides a comprehensive framework for agencies to secure federal
Security Management Act of   information and assets. This Act is Title III of the E-Government Act
2002 (FISMA)                 of 2002.
Section 522 of the           Requires federal agencies to designate a CPO to carry out duties
Transportation, Treasury,    relating to privacy and protection of personal information collected
Independent Agencies, and    and used by federal agencies. The requirements include
General Government           safeguarding information systems from intrusions, unauthorized
Appropriations Act, 2005     disclosures, and disruption or damage.

Paperwork Reduction Act of   Generally requires federal agencies to manage information resources
1995                         efficiently, effectively, and economically. The Act provides OMB with
                             broad authority to oversee federal agency information resources and
                             policy, including the privacy, confidentiality, security, disclosure, and
                             sharing of information.

OMB Circular No. A-130       Establishes policies for federal agencies for the management of
                             federal information resources, including automated information
                             systems. Appendix I of the circular specifically covers agency
                             responsibilities for implementing the reporting and publication
                             requirements of the Privacy Act.




                                             38
                                                                                                          APPENDIX III



Responsibilities of the Chief Privacy Officer
           General Policies                            Reporting                        Other Specific Tasks
                                                      Requirements
•   Overall agency responsibility for      •    Annual Report to the               •    Establish and implement
    establishing, implementing, and             Congress on activities                  comprehensive privacy and data
    administering privacy and data              relating to privacy.                    protection procedures regarding the
    protection procedures and                                                           security of personally identifiable
    policies for personally                                                             information.
    identifiable information.              •    Privacy Impact Assessments.

                                                                                   •    Prepare a written report for the
•   Ensuring that privacy is               •    Annual Report to OMB on                 Inspector General, signed by the
    sustained, and not eroded, by               security and privacy under              CPO, of the FDIC’s use of
    new and emerging technologies               FISMA.                                  personally identifiable information,
    relating to the use, collection,                                                    along with the established policies
    and disclosure of personally                                                        and procedures.
    identifiable information.              •    Biennial Report to OMB on
                                                computer matching.
                                                                                   •    Ensure that an independent third-
•   Ensuring compliance with the                                                        party review of the agency’s privacy
    Privacy Act, other privacy-            •    Reports to OMB and the                  policies and practices is conducted
    related laws that apply to the              Congress on new or altered              at least every 2 years.
    FDIC, and established agency                systems.
    policies and procedures on
    privacy and data protection.                                                   •    Post privacy policies on the FDIC’s
                                                                                        Web site.

•   Assisting in the design of
    employee training programs to                                                  •    Ensure that information that is
    promote awareness and                                                               retrievable by an individual identifier
    compliance with the agency’s                                                        is collected, maintained, and
    established privacy policies.                                                       protected to preclude unwarranted
                                                                                        disclosure of personal information.

•   Overseeing, coordinating, and
    facilitating FDIC’s compliance                                                 •    Ensure that appropriate and
    efforts and ensuring the                                                            adequate safeguards are
    Corporation’s privacy                                                               established to protect records
    procedures are comprehensive                                                        containing personally identifiable
    and up-to-date.                                                                     information from unauthorized
                                                                                        access and disclosure.

•   Ensuring central policy-making
    role in the FDIC’s development                                                 •    Review agency Privacy Act training
    and evaluation of legislative,                                                      (every 2 years).
    regulatory, and other policy
    proposals implicating
    information issues.
                                                                                   •    Review routine use disclosures for
                                                                                        each system of records to ensure
                                                                                        the recipient’s use of records is
                                                                                        compatible with the purpose for
                                                                                        which the agency collects
                                                                                        information (every 4 years).
Source: The FDIC’s Legal Division Memorandum regarding Responsibilities of the Chief Privacy Officer.




                                                              39
                                                                                                           APPENDIX IV



Definitions for Privacy Act and Other Forms of Sensitive Information
FDIC Circular 1031.1 (Currently under revision.)
The Privacy Act of 1974: Employee Rights and Responsibilities (March 29, 1989)
Circular cites the Privacy Act of 1974 definition of a “record” which is any item, collection, or grouping of information
about an individual that is maintained by an agency, including, but not limited to, his or her education, financial
transactions, medical history, and criminal or employment history and that contains his or her name, or the identifying
number (such as a SSN), symbol, or other identifying particular assigned to the individual, such as a finger or voice
print or a photograph.
OMB Guidance for Implementing the Privacy Provisions of the E-Government Act of 2002, Attachment A,
Section II.A.2
Guidance includes the term “information in identifiable form,” which is information in an IT system or online collection:
(i) that directly identifies an individual (e.g., name, address, SSN or other identifying number or code, telephone
number, e-mail address, etc.) or (ii) by which an agency intends to identify specific individuals in conjunction with other
data elements, i.e., indirect identification. These data elements may include a combination of gender, race, birth date,
geographic indicator, and other descriptors.
DIT Guidance: 10 Tips to Protect IT Resources
Guidance includes a non-exhaustive list of data and documents deemed to be “sensitive data.” The list includes
customer data, examination and enforcement data, legal documents, personnel data, assessment data, and resolutions
and receivership data.
FDIC Circular 1310.5, Encryption and Digital Signatures for Electronic Mail
Guidance states e-mails and attachments that contain information of a private or sensitive nature that are transmitted
over unsecured communications, such as the Internet, shall be encrypted and possibly include a digital signature.
Email and attachments containing sensitive information such as personnel-related actions should be considered for
encryption.
OPM Operating Manual: The Guide to Personnel Record Keeping
Manual defines the term “record” as all papers, maps, photographs, machine-readable materials or other
documentation, regardless of physical form, made or received by the Government in connection with the transaction of
public business and preserved as evidence of decisions, operations, or other activities of the Government. The manual
states that the Privacy Act of 1974, as amended (5 U.S.C. 552a) applies to records under the control of an agency
about an individual, such as an employment history, that contain the individual’s name or some other item that identifies
that person and from which information is retrieved by the name or other particular assigned to the individual. Agencies
must ensure that personnel records subject to the Privacy Act are secured against unauthorized access. Access to
personnel records subject to the Privacy Act should be limited to those whose official duties require such access.
Agencies should establish procedures to allow employees or their designated representatives access to their own
records. Agencies must ensure that those authorized to access personnel records subject to the Privacy Act
understand how to apply the Act’s restrictions on disclosing information from systems of records.
FDIC Web Privacy Guide
Guide cites personal information (or personally identifiable information) as any data that identifies an individual.
Examples of personal information gathered from the definitions found in pending legislation are: name, e-mail address,
home address, other physical address, telephone number, SSN, birth date, place of birth, birth certificate number, any
other data that identifies an individual, and any other information that is maintained with, or can be searched or
retrieved by means of, any other data in this list.
DIT Policy Memo, Cookies in Internet Products
Personal identifying information is defined for the purposes of Privacy Act issues in FDIC’s Circular 1031.1, The Privacy
Act of 1974: Employees Rights and Responsibilities. The following examples of personal identifying information have
been gleaned from recent laws, regulations, and proposed legislation addressing online privacy: names, home and
other physical addresses, telephone numbers, e-mail addresses, SSNs, any other identifier that permits the physical or
online contacting of a specific individual, and any information that is maintained with, or can be searched or retrieved by
means of data described in this definition.
Guidance on Identifying Sensitive and Confidential Information (Prepared by FDIC’s Ethics Section)
Guidance lists the general type of information that is considered to be sensitive and confidential information, regardless
of whether the information is in a hardcopy document or an automated document and that may not be disclosed unless
specifically authorized by law. The list includes employee personnel records that consist of all current and former FDIC
employees and applicants to and graduates of the FDIC Upward Mobility Program. The guidance contains an
extensive detailed list of information which may not be released including, for example, individuals’ birth date, SSN,
home address and telephone number, emergency contacts, employment and education experience, record of leave
and time-and-attendance, performance appraisals; written notes or memoranda on employee performance; records
relating to on-the-job training; data documenting reasons for personnel actions, decisions, or recommendations made
about an employee; and documents related to on-the-job injuries.
FDIC Privacy Program Web site (external)
Web site references FDIC’s Privacy Act regulations, which include the definition of a record as any item, collection, or
grouping of information about an individual that contains his or her name, or the identifying number, symbol, or other
identifying particular assigned to the individual. Web site also references personally identifiable information,
information on individuals, and personal information, but does not provide a definition for these terms.




                                                              40
                                                                                                     APPENDIX V



FDIC Systems of Records Containing Personal Employee Information
  Number               Title           Location                 Storage                        Safeguards
  30-64-0001       Attorney—           Legal                Paper format in          Records are maintained in lockable
                   Legal Intern        Division             individual file          metal file cabinets accessible only by
                   Applicant                                folders in cabinets      authorized personnel.
                   Records
  30-64-0003       Administrative      Office of the        Electronic media,        Electronic files are password-
                   and Personnel       Executive            microfilm, paper         protected and accessible only by
                   Action Records      Secretary            format within            authorized personnel. Paper format
                                                            individual file          documents are stored in lockable
                                                            folders, minute          metal file cabinets or vault accessible
                                                            book ledgers, and        only by authorized personnel.
                                                            index cards
  30-64-0006       Employee            Component            Electronic media         Electronic files are password-
                   Confidential        divisions,           and paper format         protected and accessible only by
                   Financial           offices, and         within individual file   authorized personnel. Paper format
                   Disclosure          regional             folders                  copies are maintained in lockable file
                   Records             offices.                                      cabinets.
  30-64-0007       Employee            DOA                  Electronic media         Electronic files are password-
                   Training                                 and in paper format      protected and accessible only by
                   Information                              within individual file   authorized personnel. Paper records
                   Records                                  folders                  within individual file folders are
                                                                                     maintained in lockable metal file
                                                                                     cabinets accessible only by
                                                                                     authorized personnel.
  30-64-0010       Investigative       OIG                  Electronic media         Electronic files are password-
                   Files of the                             and paper format in      protected and accessible only by
                   Office of the                            individual file          authorized personnel and file folders
                   Inspector                                folders                  are maintained in lockable file
                   General                                                           cabinets and lockable offices with
                                                                                     access only by authorized personnel.
  30-64-0011       Corporate           DOA                  Electronic media         Password protected and accessible
                   Recruitment                                                       only by authorized personnel.
                   Tracking                                                          Network servers are located in a
                   Records                                                           locked room with physical access
                                                                                     limited to only authorized personnel.
  30-64-0012       Financial           DOF                  Electronic media         Electronic files are password-
                   Information                              and paper                protected and accessible only by
                   Management          Legal                format/record cards      authorized personnel. Paper
                   Records             Division             in individual file       documents are maintained in
                                                            folders                  lockable metal file cabinets.
  30-64-0015       Unofficial          To be                To be revised at a       To be revised at a later date.
                   Personnel           revised at a         later date.
                   System              later date.
  30-64-0017       Employee            Health Unit,         Electronic media         Electronic files are password-
                   Medical and         Main                 and paper format         protected. Paper format records are
                   Health              Building,                                     stored in lockable file cabinets with
                   Assessment          Virginia                                      limited access.
                   Records             Square, and
                                       regions
  30-64-0018       Grievance           DOA                  Electronic media or      Electronic files are password-
                   Records                                  paper format in          protected. Paper records are stored
                                                            individual files         in lockable file cabinets with limited
                                                                                     access.
  30-64-0020       Telephone Call      DIT                  Electronic media         Password-protected and accessible
                   Detail Records                                                    only by authorized personnel.
  30-64-0021       Fitness Center      Fitness              Paper format within      Records are kept in lockable file
                   Records             Center               individual file          cabinets with limited access.
                                                            folders

Source: FDIC Rules and Regulations, Part 310.




                                                       41
                                                                                                    APPENDIX VI



Types of Information Maintained in the Unofficial Personnel System SORN
    Categories of Records in the System

 1.   Information on Individuals relating to:
      •   Birth date, SSN, emergency contacts, addresses and telephone numbers.
      •   Employment and education experience.
      •   Original applications, résumés and letters of reference.
      •   Record of material and equipment issued to individual.
      •   Records of leave and time and attendance.
      •   Performance appraisals, written notes or memoranda on employee performance, counseling.
      •   Employee assignments, list of banks examined.
      •   On-the-job training records.
      •   Data documenting reasons for personnel actions, decisions, and recommendations made about the
          employee and disciplinary and adverse action backup material.
      •   Claims for benefits under the Civil Service Retirement system.
      •   Federal Employees Group Life Insurance and documents related to on-the-job injuries.

 2.   Parking Permit Records containing information (name, address, and type of automobile) about FDIC
      employees who have applied for a parking permit in the FDIC Washington office garage.

 3.   FDIC Personnel Awards, including information supporting the employee’s nomination for one of these
      awards.

 4.   Dental Insurance Records, including information on earnings, number and name of dependents, sex,
      birth date, home address, and SSN.

 5.   Employee Locator Records containing employee’s name, SSN, division or office assignment, office
      telephone number, and office room number.

 6.   Upward Mobility Files coordinated by the FDIC Office of Personnel Management.

 7.   FDIC Savings Plan Records containing the employee’s name, SSN, grade, salary, home address, and
      birth date; record of employee contributions and FDIC contributions to investment funds, account earnings
      and balance; participant-designated beneficiaries; date of participation; indication as to whether a
      participant’s interest is vested; allocation of contributions to investment funds; documentation for reason of
      hardship withdrawal and amount of withdrawal request (including documents evidencing purchase of
      primary residence, proposals to evict from, or foreclose on the mortgage of, a participant’s primary
      residence, education expenses, medical expenses, and other acceptable financial hardship);
      documentation to support participation in the FDIC Savings Plan Loan Program; and personal financial
      statement.




                                                         42
Appendix VII
     APPENDIX VII




44
     APPENDIX VII




45
     APPENDIX VII




46
     APPENDIX VII




47
     APPENDIX VII




48
     APPENDIX VII




49
     APPENDIX VII




50
     APPENDIX VII




51
                                                                                                                   APPENDIX VIII



Management Response to Recommendations
This table presents the management response to the recommendations in our report and the status of the recommendations as of the date
of report issuance.


 Rec.                                                                             Expected             Monetary   Resolved:a   Open or
                Corrective Action: Taken or Planned/Status
Number                                                                          Completion Date        Benefits   Yes or No    Closedb

          The Corporation will conduct a comprehensive review of
   1      existing directives, policies, and Web sites and will develop and    September 15, 2006         $0         Yes        Open
          issue an overarching privacy policy, if necessary.
          The Corporation is conducting a comprehensive review of the          Preparation of draft
   2      current UPS SORN to ensure that personal information is              SORN by
          handled in full accord with privacy law and policy. A draft of the   March 31, 2006.
                                                                                                          $0         Yes        Open
          revised SORN will be prepared and will be subject to approval        Publication in the
          by the Board of Directors prior to publication in the Federal        Federal Register by
          Register.                                                            September 15, 2006.
          The Corporation is conducting a review of the current UPS
          SORN, which will include a thorough reexamination of the
          purposes, routine uses, and security requirements of each            Draft of new SORN, if
          group of records covered by the SORN. The review is                  necessary, by
   3                                                                                                      $0         Yes        Open
          designed to ensure that all groups of records are evaluated to       March 31, 2006
          determine whether they continue to be compatible and
          appropriately combined. A draft of any new SORN(s) will be
          prepared, if determined by the review.
          DOA, in conjunction with the Legal Division, has developed a
          standard Privacy Act contract clause and has incorporated the
   4      clause into its Standard Documents and the General                   Completed                  $0         Yes       Closed
          Provisions.
          ASB will modify the existing contracts discussed in this report.
   5      The modifications will contain the newly developed Privacy Act       January 31, 2006           $0         Yes        Open
          and confidentiality requirements.




                                                                        52
                                                                                                              APPENDIX VIII



 Rec.                                                                            Expected         Monetary   Resolved:a   Open or
               Corrective Action: Taken or Planned/Status
Number                                                                         Completion Date    Benefits   Yes or No    Closedb

         DOA concurred with intent of the recommendation but indicated
         that the program office was in the best position to identify those
  6      contracts with encryption requirements and noted that the APM        Not Applicable         $0         Yes       Closed
         requires contractors subject to Circular 1360.17 to include IT
         security and monitoring requirements in the SOW.
         DOA will modify the contracts identified in this report to include
  7      confidentiality clauses.                                             January 31, 2006       $0         Yes        Open

         ASB held several training/discussion sessions with ASB staff
         and issued an e-mail reminder that contract specialists do not
  8      have the authority to waive confidentiality statement                Completed              $0         Yes       Closed
         requirements without the Legal Division’s concurrence.
         HRB will issue a memorandum to all regional offices instructing
         the regions to: (1) specify in the SOW for the contractor-
  9      operated OPF file rooms the tasks to be performed; (2) ensure        December 16, 2005      $0         Yes        Open
         that contractors sign confidentiality agreements; and (3) use the
         ARMS to consistently check OPFs in and out.
         DOA management evaluated DSC’s practice of not maintaining
         UPFs and the need for establishing a corporate-wide policy.
  10     DOA determined a need to continue maintaining these files and        Not Applicable         $0         Yes       Closed
         that a corporate-wide policy was not needed at this time.
         DOA concurred with the intent of the recommendation but
         responded that proper controls are in place over student and
  11                                                                          Not Applicable         $0         Yes       Closed
         intern access to sensitive information. DOA’s written response
         detailed examples of those controls.
         DOA eliminated the entry of employees’ SSNs in the Career
         Management Services’ mentoring program database as of
         October 2005. All further databases transmitted to the
  12     contractor will use the CHRIS identification numbers rather than     Completed              $0         Yes       Closed
         the SSNs. In addition, mentoring program applications for all
         future mentoring classes will request CHRIS identification
         numbers rather than SSNs from the applicants.




                                                                        53
                                                                                                                      APPENDIX VIII



 Rec.                                                                           Expected             Monetary       Resolved:a      Open or
                 Corrective Action: Taken or Planned/Status
Number                                                                        Completion Date        Benefits       Yes or No       Closedb

           The CPO has revised the PIA template to include a question
           pertaining to the opportunities system users have to decline to
    13     provide information or to consent to particular uses of           April 15, 2006              $0             Yes           Open
           information and how system users may grant consent. The
           CPO will revise all existing PIAs to include this question.
           The CPO will work in conjunction with DOA and the Legal
           Division to research and document in a report the feasibility,
           benefits, and costs of requiring that contractors and vendors
    14                                                                       June 15, 2006               $0             Yes           Open
           who are not connected to FDIC’s network, but who maintain
           Privacy Act information on behalf of the FDIC, receive some
           form of third-party information technology security review.
           The CPO will enhance the security guidance provided to
           contractors and vendors that are not connected to FDIC’s
           network but that maintain Privacy Act information on behalf of
    15                                                                       September 15, 2006          $0             Yes           Open
           the FDIC. The enhancements will clarify which parts of the
           guidance apply to these types of contractors and vendors and
           will be reflected in FDIC Circular 1360.17.

a
  Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
             (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
             (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered
                 resolved as long as management provides an amount.
b
  Once the OIG determines that agreed-to corrective actions have been completed and are effective, the recommendation can be closed.




                                                                        54
